<html>
<title> - THE FIRST ANNUAL STATE DEPARTMENT REPORT ON INTERNATIONAL RELIGIOUS FREEDOM</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
  THE FIRST ANNUAL STATE DEPARTMENT REPORT ON INTERNATIONAL RELIGIOUS 
                                FREEDOM

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               INTERNATIONAL OPERATIONS AND HUMAN RIGHTS

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                       WEDNESDAY, OCTOBER 6, 1999

                               __________

                           Serial No. 106-97

                               __________

    Printed for the use of the Committee on International Relations



                    U.S. GOVERNMENT PRINTING OFFICE
64-167 CC                   WASHINGTON : 2000




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

       Subcommittee on International Operations and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
WILLIAM F. GOODLING, Pennsylvania    CYNTHIA A. MCKINNEY, Georgia
HENRY J. HYDE, Illinois              ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
CASS BALLENGER, North Carolina       EARL F. HILLIARD, Alabama
PETER T. KING, New York              BRAD SHERMAN, California
MATT SALMON, Arizona                 WILLIAM D. DELAHUNT, Massachusetts
THOMAS G. TANCREDO, Colorado         GREGORY W. MEEKS, New York
            Grover Joseph Rees, Subcommittee Staff Director
                      Douglas C. Anderson, Counsel
              Gary Stephen Cox, Democratic Staff Director
                  Nicolle A. Sestric, Staff Associate



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Honorable Robert Seiple, Ambassador-at-Large for International 
  Religious Freedom, U.S. Department of State....................     7
Ms. Nina Shea, Member, U.S. Commission on International Religious 
  Freedom........................................................    26
Mr. Stephen Rickard, Director, Washington Office, Amnesty 
  International USA..............................................    29
Dr. Paul Marshall, Senior Fellow, Center for Religious Freedom, 
  Freedom House..................................................    35
Rev. Nguyen Huu Le, Executive Director, Committee for Religious 
  Freedom in Vietnam, Former Religious Prisoner in Vietnam.......    38
Mr. Abdughuphur Kadirhaji, Uighur Muslim from Urumqi City, 
  Xinjiang Uighur Autonomous Regon, China........................    40

                                APPENDIX

Prepared statements:
Honorable Christopher H. Smith, a U.S. Representative in Congress 
  from the State of New Jersey, Chairman, Subcommittee on 
  International Operations and Human Rights......................    52
Honorable Dan Burton, a U.S. Representative in Congress from the 
  State of Indiana...............................................    57
Ambassador Seiple................................................    58
Ms. Shea.........................................................    73
Mr. Rickard......................................................    77
Dr. Marshall.....................................................    85
Rev. Le..........................................................    92
Mr. Kadirhaji....................................................    96
Additional material submitted for the record:
List of Names of Sikh victims, submitted by Rep. Burton..........   100
List of Confiscated Church Properties, submitted by Reverend Le..   121




  THE FIRST ANNUAL STATE DEPARTMENT REPORT ON INTERNATIONAL RELIGIOUS 
                                FREEDOM

                              ----------                              


                       WEDNESDAY, OCTOBER 6, 1999

                  House of Representatives,
                     Subcommittee on International,
                               Operations and Human Rights,
                              Committee on International Relations,
        Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2 p.m. In Room 
2172, Rayburn House Office Building, Hon. Christopher H. Smith 
(Chairman of the Subcommittee) Presiding.
    Mr. Smith. The Subcommittee will come to order.
    Good afternoon. Today's hearing is the latest in a series 
of Subcommittee hearings focusing on religious persecution 
around the world. Over the last 5 years, we have heard from 
numerous government officials, experts, eyewitnesses and 
victims at a dozen hearings focusing on various aspects of the 
problem including worldwide anti-Semitism, the persecution of 
Christians around the world, the 1995 massacre of Bosnian 
Muslims in Srebrenica, the enslavement of black Christians in 
the Sudan, and the use of torture against religious believers 
and other prisoners of conscience.
    Last year, this Subcommittee marked up H.R. 2415, 
Congressman Frank Wolf's landmark legislation on the problem of 
international religious persecution. In November, an amended 
version of the Wolf bill was enacted into law as the 
International Religious Freedom Act of 1999. Among the most 
important provisions of that act were an Annual Report on 
International Religious Freedom, a Special Ambassador for 
Religious Freedom, and we are very happy to have here today an 
independent bipartisan Commission on International Religious 
Freedom.
    Today we will hear testimony on the first annual report 
provided to Congress pursuant to the Religious Freedom Act, and 
among our witnesses are Ambassador Robert Seiple and 
Commissioner Nina Shea, whose offices were created by the act. 
So today's hearing is living proof that the United States has 
taken some important steps toward helping millions of people 
around the world who are persecuted simply because they are 
people of faith.
    Unfortunately, we still have a long way to go. The first 
Annual Report exhibits some of the strengths but also some of 
the weaknesses of the State Department's annual Country Reports 
on Human Rights Practices, which address a broader range of 
human rights violations. As we learn year after year in our 
hearings on the Country Reports, the production of an honest 
and effective report on human rights violences entails a series 
of struggles.
    First, it is necessary to get as many facts as possible and 
to get them right. Then it is important to state the facts 
clearly and honestly. It is important to avoid sensationalism, 
but it is at least as important to avoid hiding the facts 
behind exculpatory introductions or obfuscatory conclusions.
    Finally, and most difficult of all, it is necessary to 
translate a clear understanding of the facts about religious 
persecution into a coherent policy for ending it.
    In general, I believe the first Annual Report on 
International Religious Freedom succeeds in getting the facts 
straight. There are some important omissions, such as the 
Indonesia report's failure to examine the evidence of anti-
Catholicism that has played an important role in the repression 
of the people of East Timor by elements of the Indonesian 
military.
    I would note parenthetically we just spent all of last week 
working on a 1-day hearing looking at the problem there, and we 
were very pleased to have Jose Ramos-Horta as well as Xanana 
Gusmao as two of our lead witnesses, in addition to Julia Taft 
and Howard Koh. So that is one thing that we had in here.
    But I am impressed with the extent to which the report 
states hard facts even about governments with which the United 
States enjoys friendly relations. For instance, the reports on 
France, Austria, and Belgium detail the recent official 
harassment and/or discrimination by the governments of these 
countries against certain minority religions such as Jehovah's 
Witnesses and some Evangelical and Pentecostal denominations.
    Even more impressive is the first sentence of the report on 
Saudi Arabia. It is a simple declarative sentence, and I quote, 
``Freedom of religion does not exist.''
    Unfortunately, in some places, the report could not seem to 
resist trying to mitigate the unpleasant appearances of the 
hard facts by surrounding them with weasel words. In several 
reports on Communist countries, the government's failure to 
enforce anti-religion laws uniformly--which is typically due to 
inefficiency, favoritism or corruption--is reported in words 
that suggest the possibility of secret first amendment 
sympathies on the part of local or central governments. We are 
told, for example, that the Cuban government's efforts to 
control religion, quote, ``do not affect all denominations at 
all times.''
    The report on Laos even makes the remarkable assertion that 
the central government was, and I quote, ``was unable to 
control'' harsh measures taken against Christians by local and 
provincial authorities, although these measures were fully 
consistent with Communism party doctrine and previous actions 
by the central government.
    Ambassador Seiple, in calling attention to these 
transparent attempts to sugar-coat the facts with meaningless 
and/or misleading editorial comment, I do not want to detract 
from the very good work that your office and the Bureau of 
Democracy, Human Rights and Labor have done on this report. On 
the contrary, these nonsequiturs and disconnects are strong 
evidence that there was a struggle within the administration 
between human rights workers who tried to tell it exactly like 
it is and some of our embassies or regional bureaus who were 
carrying water for their odious clients. In general, the good 
guys appear to have won.
    Despite these important victories that have led to this 
strong, honest, and thorough report, I am deeply concerned that 
it might not result in the necessary changes in U.S. policy. 
This is particularly sad because the International Religious 
Freedom Act provided an important mechanism for bringing about 
such changes. Specifically, the law provides that on or before 
September 1st of each year, the same day the annual report is 
due, the President shall review the status of religious freedom 
in each foreign country to determine which governments have 
``engaged in or tolerated particularly severe violations of 
religious freedom'' during the proceeding 12 months.
    These countries are to be designated as countries of 
particular concern for religious freedom, and the President 
then must either impose diplomatic, political or economic 
sanction against the governments of these countries or issue a 
waiver of such action. This year, however, the President did 
not designate any countries of particular concern until late 
last night, about 5 weeks beyond the statutory deadline.
    Ambassador Seiple, I want to congratulate you for prying 
that list loose from wherever it was in the Federal bureaucracy 
in time for today's hearing. Unfortunately, this designates 
only five countries along with two de facto authorities that 
are not recognized by the U.S. as natural governments.
    In choosing these seven regimes--Burma, China, Iran, Iraq, 
Sudan, Serbia, and the Taliban--the President made only the 
easy choices. Six of them are pariah regimes, already under 
severe sanctions for reasons other than religious persecution. 
The seventh, China, must have generated a warm debate within 
the administration, not because the evidence is unclear about 
the atrocities the Chinese government commits every day against 
Roman Catholics, house church Protestants, Uighur Muslims, 
Tibetan Buddhists, and other believers, but because a 
designation of China as a country of particular concern might 
be bad for the relationship.
    Ambassador Seiple, I am glad the forces of light prevailed 
when it came to designating China. But where is Vietnam, which 
brutally suppresses Buddhists, Protestants and others who will 
not join official churches run by the government itself and 
which attempts to control the Catholic Church through a 
Catholic Patriotic Association modeled closely after the 
Chinese institution of the same name? Where is North Korea, 
whose government imprisons evangelists and then treats them as 
insane? Where are Laos and Cuba, which engage in similar brutal 
practices? Where is Saudi Arabia in which, and again I quote, 
``freedom of religion does not exist?''
    Does the administration really believe these governments 
have not engaged in or tolerated particularly severe violations 
of religious freedom? Or were the President and his advisers 
more worried about injuring the relationship or interfering 
with ongoing efforts to improve the relationship than with 
giving the honest assessment required by the plain language of 
the statute?
    Mr. Ambassador, as you know, the Executive Summary of the 
report contains a description of U.S. actions to promote 
religious freedom abroad. Among other things, it states, ``the 
most productive work often is done behind the scenes. It 
happens when an ambassador, after discussing with his senior 
official his country's important strategic relationship with 
the U.S., raises one more thing, access to the imprisoned mufti 
or information on a missionary who has disappeared.''
    Unfortunately, this description tends to confirm rather 
than dispel some of the most frequent criticisms of this 
administration's treatment of religious liberty issues in its 
conduct of U.S. foreign policy: First, that the administration 
is squeamish about holding governments publicly accountable for 
their repression; second, that the administration focuses on 
specific high-profile cases rather than pressing for systemic 
improvements; and, third, that the administration too often 
treats religious liberty as ``one more thing,'' an addendum to 
other policy discussions, rather than mainstreaming it into 
other larger deliberations concerning economic, trade, aid, 
security policies and the like, those things that might provide 
concrete incentives for repressive regimes to change their 
actions.
    Mr. Ambassador, we need to convince, I believe, repressive 
governments that religious freedom is not just ``one more 
thing.'' Totalitarian regimes often come down harder on 
religious believers than on anyone else. This is because 
nothing threatens such regimes more than faith. In the modern 
world, in which the rhetoric of cultural relativism and moral 
equivalence is so often used to make the difference between 
totalitarianism and freedom seem just like just a matter of 
opinion, the strongest foundation for the absolute and 
indivisible nature of human rights is the belief that these 
rights are not bestowed by governments or international 
organizations but by God. People who are secure in their 
relationship with God do not intimidate easily.
    So we must remind ourselves, and then we must remind our 
government, that human rights policy is not just a subset of 
trade policy, and refugee protection is not just an 
inconvenient branch of immigration policy. On the contrary, 
these policies are about recognizing that good and evil really 
exist in the world. They are also about recognizing that we are 
all brothers and sisters, and we are our brothers' and sisters' 
keepers.
    Mr. Ambassador, this report is a good first step toward 
restoring these human rights policies to the place they deserve 
as a top priority in American foreign policy, and I am very, 
very grateful to have you here.
    I would like to yield to my colleagues before introducing 
our very distinguished guests.
    The Chairman of the Full Committee, Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman.
    I want to thank our distinguished Chairman of the Committee 
and ranking minority Member of the Subcommittee on 
International Operations and Human Rights, the gentleman from 
New Jersey, Mr. Smith, and the gentlelady from Georgia, Ms. 
McKinney, for holding this important hearing today. I see we 
are joined by Congressman Lantos, who has been a staunch 
supporter of religious freedom, and I want to especially 
commend Congressman Frank Wolf, the gentleman from Virginia, 
for his leadership on the important International Religious 
Freedom Act. Although we regrettably had to accept some 
weakening amendments to the bill from the Senate at the time we 
adopted it, his leadership ensured the strong bipartisan 
measure to final adoption.
    In response to section 102 of the International Religious 
Freedom Act of 1998, the State Department 1 month ago released 
its first Annual Report on International Religious Freedom for 
1999; and while the report can be criticized for its lack of 
depth in many areas, I want to thank our good Ambassador who is 
here with us today for focusing resources in the right 
direction.
    Ambassador Seiple has done an outstanding job as our first 
Ambassador on our international religious freedom issues. 
Besides the mandate to provide detailed information with 
respect to religious freedom around the world, the 
International Religious Freedom Act also requires that the 
President or his designees, in this case the Secretary of 
State, to determine which countries should be designated as 
countries of particular concern.
    I am informed that the list is made of up of Burma, 
People's Republic of China, Sudan, Iran, Iraq and the Taliban 
in Afghanistan. While there are many other nations that could 
be mentioned, I was concerned to learn that Vietnam, Laos, Cuba 
and Saudi Arabia were not designated. Vietnam and Laos have the 
same restrictive policies on unapproved and unregistered 
religious institutions as the People's Republic of China.
    According to the Country Report on Human Rights Practices, 
Saudi Arabia has a systematic discrimination based on religion, 
and that is built into their law. Cuba imprisons and tortures 
Protestant evangelists who refuse to work with denominations by 
the government. Despite the opening of the talks that came 
about through the Pope's recent visit, they turned out to be 
just that, talk.
    We hope that the administration will not be reluctant to 
list Vietnam and Laos as countries of particular concern 
because it is trying to ensure that these repressive regimes 
obtain most favored nations trading status. Our Nation's 
foreign policy must never be to ensure that business comes 
before the right to freely practice one's religion and the 
freedom of assembly.
    We look forward to hearing from our distinguished 
witnesses; and I thank you, Mr. Chairman, for conducting this 
hearing.
    Mr. Smith. Thank you very much, Chairman Gilman.
    Mr. Lantos.
    Mr. Lantos. Thank you very much, Mr. Chairman.
    Let me at the outset commend my friend from Virginia, Frank 
Wolf, who emphatically pursued this goal, and we are all here 
to celebrate what in fact is a victory for religious freedom in 
no small measure, thanks to his commitments and his efforts.
    I also want to pay tribute to you and to Chairman Gilman 
for your unfailing support of religious freedom. I want to 
welcome our distinguished Ambassador and look forward to many 
annual reports over the coming years.
    I want to congratulate both you and the administration on 
this report. I agree with my colleagues that the list of seven 
could easily be expanded, and I hope that in coming years it 
will either be expanded or the performance of these countries 
will change so that they will not have to be included in this 
infamous listing of countries that deny religious freedom.
    I particularly want to commend the administration for 
including China in the list. It is important for all of us in 
Congress to recognize that we have a far greater degree of 
freedom as individual Members of Congress to express our views 
since it is not our responsibility to conduct official 
diplomatic relations with other countries.
    It is far easier for a Member of Congress to recommend that 
China be on the list than it is for an administration which has 
a tremendous variety of relationships with China to include 
China. So I commend you, Mr. Ambassador, and Secretary Albright 
and the President and the Vice President for having the courage 
to include China in this list because China surely belongs on 
that list.
    I also agree with my colleagues that a number of countries, 
ranging from Saudi Arabia to Vietnam to Cuba, should be 
included on the basis of their performance; and I hope that in 
subsequent reports, they either will be included or their 
improved performance will qualify them not to be included.
    But I think it is easy to nitpick the first historic report 
on religious freedom globally. The United States is the only 
country on the face of this planet--I want to repeat this--the 
United States is the only country on the face of this planet 
which has an annual report prepared by its administration and 
submitted to its Congress on this most important subject.
    I think it is very important to underscore the positive. 
This is a major legislative achievement and a major 
accomplishment by the administration. The report is extensive, 
impressive, accurate and overwhelmingly depressing. It is 
depressing because this fundamental human right, the right of 
religious freedom, is so little observed in so many countries 
of this world; and religious hatred and bigotry still permeate 
the official public policy of large numbers of countries on the 
face of this planet.
    I think it is extremely important that we rejoice in our 
combined and joint efforts as Republicans and Democrats and as 
a Congress and as an administration; and I look forward to 
working with you, Mr. Ambassador, and your staff, for years to 
come, hopefully, to improve the cause of religious freedom 
globally.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Lantos. I think you 
pointed out so well that we do work in a bipartisan way on 
human rights in a town that seems to have partisanship written 
all over it. At least this is one area where we can come 
together and promote the common welfare for people across the 
planet. So thank you very much for your comments.
    Mr. Pitts.
    Mr. Pitts. Thank you, Mr. Chairman. Thank you for holding 
this hearing. Your efforts on behalf of religious freedom have 
positively affected numerous people around the world, and I am 
honored to work with you and commend especially Congressman 
Wolf and Congressman Lantos, Chairman Gilman, to work on behalf 
of promoting human rights and religious liberty around the 
world.
    I also want to commend Ambassador Seiple and the numerous 
individuals in the State Department who spent, I am sure, a 
tremendous amount of time and effort in the report that we are 
examining today.
    As a newly appointed member of the Helsinki Commission, I 
have concerns regarding the state of religious freedom in 
Europe and Central Asia and the Caucasus, concerns about how 
the 1997 Russian religious law is being implemented.
    The 1998 Uzbek law, which I think is the most restrictive 
law in the OSCE region, criminalizes unregistered religious 
activities. It penalizes free religious expression. Over 200 
individuals have been imprisoned in Uzbekistan this year for 
their religious practices. In countries such as Hungary and 
Bulgaria and Ukraine and Romania, new laws restricting 
religious freedom are in various stages of legislative process. 
In Azerbaijan, the raid of the Baptist Church on September 5th 
and last Sunday's raid of the German Lutheran Church underscore 
the price that religious believers pay for their faith.
    Because of time limitations, I won't go into detail. But, 
like the Chairman, I am very concerned about the religious 
liberty violations in the People's Republic of China, Sudan, 
Pakistan, Turkmenistan, Vietnam, Saudi Arabia, Burma, Egypt, 
Iran, and others.
    I am very disappointed that Vietnam and Pakistan were not 
designated as countries of particular concern, despite 
widespread religious liberty violations in both of these 
countries.
    Mr. Chairman, thank you again for holding this hearing. I 
look forward to working with all of you, all of us together on 
behalf of religious liberty around the world.
    Mr. Smith. Thank you very much, Mr. Pitts.
    Mr. Wolf?
    Mr. Wolf. No opening statement. That is OK.
    Mr. Smith. The prime sponsor of the bill has nothing to 
say.
    Mr. Smith. Let me introduce our distinguished witness, 
Ambassador Robert Seiple, who was confirmed as the State 
Department's first Ambassador-at-Large for International 
Religious Freedom on May 5th of this year. For the last 11 
years, he has served as president of World Vision, the largest 
privately funded relief and developmental agency in the world. 
A former Marine and recipient of the distinguished Flying Cross 
and numerous other awards for his service in Vietnam, 
Ambassador Seiple previously served as president of Eastern 
College and Eastern Baptist Theological Seminary.
    Mr. Ambassador, welcome to the Subcommittee. We look 
forward to your statement.

  STATEMENT OF THE HONORABLE ROBERT A. SEIPLE, AMBASSADOR-AT-
           LARGE FOR INTERNATIONAL RELIGIOUS FREEDOM

    Mr. Seiple. Thank you very much, Mr. Chairman and Members 
of Congress. With your permission, I will, in the interest of 
time, read a shortened version of my prepared text and ask that 
the entire text be entered into the record.
    Mr. Smith. Without objection, the full text will be made a 
part of the record.
    Mr. Seiple. It is a pleasure to be here today to testify 
about the Department of State's first Annual Report on 
International Religious Freedom. I consider it an honor to 
appear before you, knowing as I do the key role you played in 
the Committee in promoting religious freedom and in creating 
the International Religious Freedom Act.
    We share a common vision, a simple but profound vision. It 
is to help people who suffer because of their religious faith. 
Such people live literally around the globe, and they number in 
the millions. They live in fear, afraid to speak of what they 
believe. They worship underground in 21st century catacombs, 
lest authorities discover and punish their devotion to an 
authority beyond the state. They languish in prisons and suffer 
torture, simply because they love God in their own way.
    They are children stolen from their parents, sold into 
slavery and forced to convert to another religion. They are 
Christian mothers searching for their missing sons. They are 
Buddhist monks in reeducation camps, Jews imprisoned on 
trumped-up charges of espionage, Muslims butchered for being 
the wrong kinds of Muslims. They hail from every region and 
race, and their blood cries out to us. Not for vengeance, but 
for hope and for help and for redress.
    Nor should we speak of human suffering merely in terms of 
numbers. Suffering has a face. You will forgive me if I repeat 
a story I told elsewhere. But in my office there is a lovely 
watercolor painting of a house and a garden. The painted scene 
is one of peace, which reflects the forgiveness in the artist's 
heart. But that painting has its origins in hatred.
    The artist is a young Lebanese woman named Mary, who at the 
age of 18, was fleeing her village after it was overrun by 
militia. Mary was caught by a militiamen who demanded with his 
gun that she renounce her faith or die.
    She refused to renounce her faith. The bullet was fired, 
severed her spinal cord. Today Mary paints her paintings of 
forgiveness with a paintbrush braced in her right hand. She 
represents both the painful consequences of religious 
persecution and the best fruits of religion. Mary is filled 
with physical suffering, yet she forgives. In so doing, she 
points the way to an enduring answer to religious persecution 
and that is, of course, reconciliation.
    In order to have forgiveness and reconciliation, we must 
elevate the notion of universal human dignity, the idea that 
every human being has an inherent and inviolable worth. Lest we 
forget the face of suffering, or of forgiveness, I have 
dedicated the first Annual Report on International Religious 
Freedom to Mary.
    Mr. Chairman and Members of the Committee, you are to be 
commended for your work on this issue and for calling this 
hearing. Together with the International Religious Freedom Act 
and our own new Report on International Religious Freedom, this 
hearing will sharpen the focus for those of us who may be in a 
position to help, while at the same time it will provide hope 
to believers in every place where hope is in short supply and 
where each day brings fear of more persecution.
    We are all aware that religious liberty is the first 
freedom of our Bill of Rights and is cherished by many 
Americans as the most precious of those rights granted by God 
and to be protected by governments. This Congress was wise in 
recognizing that freedom of religion and--in a religious 
context--freedom of conscience, expression and association are 
also among the founding principles of international human 
rights covenants.
    The Universal Declaration of Human Rights, the 
International Covenant on Political and Civil Rights, as well 
as other human rights instruments, grant citizens of the world 
the right to freedom of religion. As a consequence, when we go 
to officials of foreign governments to urge them to protect 
religious freedom, we are not asking them to do it our way. We 
are asking them to live up to their commitments that they have 
made, both to their own people and to the world.
    Mr. Chairman and Members, as you well know, on October 27th 
of last year, President Clinton signed into law the 
International Religious Freedom Act of 1998. Section 102 of 
that bill calls for the submission to Congress of an Annual 
Report on International Religious Freedom to supplement the 
Country Reports on Human Rights Practices by providing 
additional detailed information with respect to matters 
involving international religious freedom.
    On September 9th, we submitted to Congress the first 
International Religious Freedom report. It is this. This is 
1,100 pages long. It covers 194 countries and focuses 
exclusively on the status of religious freedom in each. I would 
like publicly to thank the hundreds of Foreign Service Officers 
worldwide who helped research, draft, corroborate and edit this 
new report.
    I want to extend a special thanks to officers in the Bureau 
for Democracy, Human Rights and Labor, in particular, the staff 
of the Office of Country Reports and Asylum Affairs. These 
dedicated officers worked overtime, literally and figuratively, 
in order to meet the deadline and to produce the best possible 
product.
    Finally, I wish to thank my own staff in the Office of 
International Religious Freedom, not only for their hard work 
but for their love of their work. They are proud to say, as you 
do in the International Religious Freedom Act, that the United 
States stands with the persecuted.
    The report applies to all religions and beliefs. It targets 
no particular country or religion, and it seeks to promote no 
religion over another. It does, however, recognize the 
intrinsic value of religion, even as it acknowledges that 
religious freedom includes the right not to believe or to 
practice. Integrity has been our goal as we sought to ascertain 
and report the status of religious freedom in all countries 
around the globe.
    The report includes an introduction, an Executive Summary, 
and a separate section on each of the 194 countries. The 
introduction lays the philosophical groundwork for promoting 
religious freedom. While noting there is more than one 
understanding of the source of the human dignity, it also 
acknowledges a religious understanding of that source, namely, 
the idea that every human being possesses an intrinsic and 
inviolable worth that has a devine origin and is part of the 
natural order of things.
    So understood, religious freedom can provide support for 
all other human rights. When the dignity of the human person is 
destroyed, it is not simply a practical rule that is being 
violated, but the nature of the world itself.
    Mr. Chairman, I am sure you will agree that if the idea of 
human dignity is viewed merely as a utilitarian matter, solely 
the product of legislation or treaties, it becomes perishable. 
Any national or international standard that reflects only the 
norms of a given cultural or historical period can be abolished 
for the convenience of the powerful.
    Drawing from the individual reports, the Executive Summary 
provides a brief description of barriers to religious freedom 
in some 35 countries, grouped around five themes ranging from 
discrimination to harsh persecution. As required by the act, 
the Executive Summary includes, but is not limited to, those 
countries that may be designated countries of particular 
concern.
    Each of the 194 Country Reports begins with the statement 
about applicable laws and outlines whether the country requires 
registration of religious groups. It then provides----
    Mr. Smith. Mr. Ambassador, I think your microphone just 
went out. Thank you.
    Mr. Seiple. Each of the 194 Country Reports begins with a 
statement about applicable laws and outlines whether the 
country requires registration of religious groups. It then 
provides a demographic overview of the population by religious 
affiliation, outlines problems encountered by various religious 
groups, describes societal attitudes and finishes with an 
overview of U.S. policies.
    The drafting process was similar to that used in preparing 
the Human Rights Reports. We worked diligently to include as 
much factual information as possible, relying not only on our 
other sources but also on material from experts in the 
academia, nongovernmental organizations and the media. Our 
guiding principle was to ensure that all relevant information 
was assessed objectively, thoroughly and fairly as possible. We 
hope that Congress finds the report to be an objective and 
comprehensive resource.
    The International Religious Freedom Act also requires that 
the President, or in this case his designee, the Secretary of 
State, review the status of religious freedom throughout the 
world in order to determine which countries should be 
designated as countries of particular concern. As the Chairman 
and the Committee Members know, we have delayed the 
designations in order to give the Secretary ample time to 
consider all the relevant data, as well as my own 
recommendations.
    She has been reading relevant parts of the report itself, 
which was not completed until September 8th. Designations must 
be based on those reports, as well as on the Country Reports on 
Human Rights Practices, and all other information available to 
us.
    I am pleased to tell you that the Secretary has completed 
her review. We will shortly send to the Congress an official 
letter of notification in which we will detail the Secretary's 
decision with respect to any additional actions to be taken. 
While I am not prepared today to discuss those actions, I do 
wish to announce the countries that the Secretary intends to 
designate under the act as countries of particular concern. 
They are Burma, China, Iran, Iraq, and Sudan.
    The Secretary also intends to identify the Taliban in 
Afghanistan, which we do not recognize as a government, and 
Serbia, which is not a country, as particularly severe 
violators of religious freedom. I will be happy to take your 
questions about the restrictions on the exercise of religious 
freedom in all of these areas.
    I would also note that there are many other countries that 
our report discusses where religious freedoms appear to be 
suppressed. In some instances, like Saudi Arabia, those 
countries are beginning to take steps to address the problem. 
In some countries, such as North Korea, religious freedoms may 
be suppressed, but we lack the data to make an informed 
assessment. We will continue to look at these cases and collect 
information so that, if a country merits designation under the 
act, we will so designate it in the future.
    Let me turn briefly to the subject of U.S. actions to 
promote religious freedom abroad.
    Secretary Albright has said that our commitment to 
religious liberty is even more than the expression of American 
ideals. It is a fundamental source of our strength in the 
world. The President, the Secretary of State and many senior 
U.S. officials have addressed the issue of freedom in venues 
throughout the world. Secretary Albright some time ago issued 
formal instructions to all U.S. diplomatic posts to give more 
attention to religious freedom both in reporting and in 
advocacy.
    During the period covered by this report, all of 1998 and 
the first 6 months of 1999, the U.S. engaged in a variety of 
efforts to promote the right of religious freedom and to oppose 
violations of that right. As prescribed in the International 
Religious Freedom Act, the Executive Summary describes U.S. 
actions to actively promote religious freedom.
    Drawing on the individual reports, it describes certain 
activities by U.S. Ambassadors, other embassy officials and 
other high-level U.S. officials, including the President, the 
Secretary, Members of Congress, as well as the activities of my 
own office.
    Our staff has visited some 15 countries in the last several 
months, including China, Egypt, Vietnam, Uzbekistan, Serbia, 
Russia, Indonesia, Laos, Kazakhstan, Israel, Saudi Arabia, 
France, Germany, Austria, and Belgium. We have met with 
hundreds of officials, NGO's, human rights groups, religious 
organizations and journalists, here and abroad. I am delighted 
to report to you that our office has become a clearing house 
for people with information about religious persecution and 
discrimination and for the persecuted themselves. By fax, 
telephone, E-mail and direct visits they tell us their stories. 
We listen, record, and, when appropriate, we act.
    At the very least, we believe we have created a process by 
which their stories can be verified and integrated into our 
annual report. With persistence and faith, perhaps our efforts 
will lead to a reduction in persecution and an increase in 
religious freedom.
    Mr. Chairman, I have provided in my written statement a 
description of U.S. efforts in three countries, China, 
Uzbekistan, and Russia, where Congress has shown particular 
interest and in which we have expended considerable diplomatic 
effort.
    In China, our collective efforts on behalf of persecuted 
minorities, and I include Members of Congress in that 
collective, have been persistent and intense, but have 
unfortunately had little effect on the behavior of the Chinese 
Government.
    In Uzbekistan, our efforts have met with some success, 
although it certainly is too soon to discern long-term or 
systemic change for the better.
    In Russia, our interventions with the Russian government 
have apparently blunted the effects of a bad religion law.
    Again, I am willing to discuss with you any country about 
which you have concerns.
    Let me close, Mr. Chairman, by thanking you for your 
leadership in the promotion of international religious freedom 
and the entire Committee for its willingness to hold this 
hearing. As I said at the outset, we share a common vision. It 
is of a world in which people of all religions are free from 
persecution. To create such a world, we seek to change the 
behavior of those regimes which engage in or tolerate abuses of 
religious freedom and to signal persecutors and persecuted 
alike that they will not be forgotten.
    But, Mr. Chairman and Members of Congress, there is a 
profoundly important point that I believe is sometimes missed 
in our discussions of religious freedom, a point I briefly made 
earlier and one with which I am certain you will agree. Let me 
return to it in closing. To protect freedom of religion is not 
simply to shield religious belief and worship. It is that, but 
it is more. When we defend religious freedom, we defend every 
human being who is viewed as an object or a product to be used 
or eliminated according to the purposes of those with power.
    I believe that to guard religious freedom is to lift high 
the noblest of ideas, indeed the idea that is the seed bed of 
our own democracy. It is a religious understanding of human 
dignity, the conviction that every person, of whatever social, 
economic, religious or political status of whatever race, creed 
or location, is endowed by God, with a value which does not 
rise or fall with income or productivity, with status or 
position, with power or weakness.
    Mr. Chairman, let us together renew our determination to 
combat religious persecution and to promote religious freedom. 
By so doing, we hold out hope for those who live in fear 
because of what they believe and how they worship. By so doing, 
we give pause to those who contemplate tormenting others 
because of their religious beliefs. By so doing, we strengthen 
the very heart of human rights.
    Thank you.
    [The prepared statement of Mr. Seiple appears in the 
appendix.]
    Mr. Smith. Thank you very much, Ambassador Seiple, for your 
very powerful statement and very persuasive words and for your 
personal commitment to undertake so many trips abroad to meet 
with the leaders of religious faiths and, perhaps even more 
importantly, with the government officials to personally convey 
our government's deep concern about the plight of persecuted 
religious individuals or groups. I want to thank you very 
strongly for that.
    I also want to commend Mr. Farr for his good work and other 
members of your commission and your office for the fine work, 
again, in producing this voluminous document which becomes the 
basis for action; and we hope that that is what will follow.
    Mr. Burton has joined us, and I would like to yield to him 
for any opening statement.
    Mr. Burton. Yes, I have just have a real quick opening 
statement. I want to apologize, Mr. Chairman, because I do have 
to go to another hearing.
    I have heard good things about Mr. Seiple. Many times we 
have people testify that we take issue with, but it sounds like 
to me you are doing a pretty good job.
    The Committee for Coordination on Disappearances in Punjab 
recently issued a new report on enforced disappearances, 
arbitrary executions and secret cremations of Sikhs in the 
Punjab in northern India. It documents the names and addresses 
of 838 victims of this policy, and I have those I would like to 
submit for the record.
    The report is both shocking and distressing. The Committee 
is an umbrella organization of 18 human rights organizations 
under the leadership of a Hindu human rights activist. The 
report discusses ``illegal abductions and secret cremations of 
dead bodies.'' in fact, the Indian Supreme Court has itself 
described this policy as ``worse than a genocide.'' the report 
includes direct testimony from members of the victims' 
families, other witnesses and details of these brutal cases.
    The human rights community has stated that over 50,000 
Sikhs have, quote, ``disappeared'' at the hands of the Indian 
government in the early 1990's. How can any country, especially 
one that claims to be the world's largest democracy, get away 
with so many killings, abductions and other atrocities? It is 
going on not only in Punjab but Kashmir and elsewhere in the 
India.
    Will the Indian government prosecute the officials of its 
security forces who are responsible for these acts? Will the 
Indian government compensate the victims and their families? I 
think not.
    Mr. Seiple, I want to thank you for the reception you have 
given my staff and other organizations that may have submitted 
various reports and information for your review. I am 
encouraged by some of the findings in your report that focuses 
the attention in India on Christian persecution.
    I also want to point out to Mr. Seiple and my colleagues 
that, last week, Human Rights Watch issued a 37-page report 
that details violence against Christians in India that include 
killings of priests, rapings of nuns and the physical 
destruction of Christian institutions, schools and churches.
    But I want to remind everyone that there is persecution in 
Indian of almost all religions. So I hope that you will take a 
hard look at this report from the Committee for Coordination on 
Disappearances in Punjab, and I look forward to working with 
you in the future.
    Mr. Chairman, as I said before, I would like unanimous 
consent to submit the names of 838 Sikh victims that have just 
disappeared from the face of the earth and are believed to be 
cremated by the Indian government. Also, Mr. Chairman, I would 
like to, since I do have to leave, thank you for holding this 
hearing and also submit a few questions for the record.
    Mr. Smith. Without objection, Mr. Burton, your submissions 
will be made a part of the record.
    Mr. Burton. Thank you, Mr. Seiple.
    [The information referred to appears in the appendix.]
    Mr. Smith. The chair recognizes the Chairman of the Full 
Committee, Mr. Gilman, who regrettably is on a short timeframe 
and will have to depart, but he has some questions that he 
wanted to ask.
    Mr. Gilman. Thank you, Mr. Chairman.
    Again, I thank you for conducting this important hearing.
    We thank Mr. Seiple for being here, for his good report, 
even though it left out some of the countries we are concerned 
about.
    Mr. Ambassador, is the President merely saying that there 
are only seven regimes in the world that inflict torture or 
other cruel treatment of prolonged detention without charge on 
religious believers? Is that contrary to the report itself?
    Mr. Seiple. When we did the report, we looked at the 
language in the act, and the bar created four countries of 
particular country concern. It is very specific language. It 
talks about the government that either engages in or tolerates 
ongoing, systematic and egregious--and then it goes on to 
define egregious as acts of persecution, which include things 
like prolonged interment, torture, rape, disappearance and 
general mayhem about people and does that on the basis to a 
significant degree because of religion. That is the standard 
that we apply to every one of the countries.
    I am prepared in anticipation of this question to talk 
about those that either came close or came over the line or 
didn't quite meet the line, but simply to say that this in our 
mind was a very high bar, and when a country is so designated, 
it is a very significant blight on their record, and that is 
the approach that we took with every country.
    Mr. Gilman. Mr. Ambassador, were any agencies outside the 
State Department consulted about which countries should be 
included in the list?
    Mr. Seiple. We talked to literally hundreds of people and 
NGO's and human rights organizations. We also went through this 
with the commission head. The commission normally in a given 
year would have a report to give to us by the 1st of May.
    The commission is the independent commission started up 
late this year. I did have those conversations with the 
commission, all of which is to say that I think that we have 
inputs. In fact, a lot of the reporting in places will show 
that those inputs came from places like Human Rights Watch, 
Amnesty, Freedom House, and any place that we could get 
verifiable information. If we could sustain it with 
credibility, it is in the report.
    Mr. Smith. Mr. Ambassador, did you discuss this with any 
Federal agencies?
    Mr. Seiple. In the sanctioning process that we have begun 
and that you will hear about when the official letters of 
designation come for CPC's, those other Federal agencies, like 
the Treasury Department and so on, have to be included as we 
discuss sanctions. So, in that sense, there are other avenues 
and other venues and other parts of the U.S. Government.
    We have also worked very closely with this Congress in a 
couple of countries, namely Uzbekistan and very recently Egypt, 
and continued to work with staffers here in Congress at all 
levels.
    Mr. Gilman. Did any of the other Federal agencies or 
departments recommend to you that you not include any of those 
countries that you were considering?
    Mr. Seiple. Our recommendations were only based on the 
facts. We wanted to make sure that we had the report right so 
that the second exercise of designation would flow from the 
report and the report would be an acceptable and credible 
rationale for that designation.
    Answering your question specifically, no.
    Mr. Gilman. One last question, Mr. Ambassador. With regard 
to Tibet, during the period covered by the report, diplomatic 
personnel consistently urged both central and local Chinese 
authorities to respect religious freedom in Tibet. Figures as 
prominent as President Clinton and Assistant Secretary Koh 
raised specific issues of concern about the human rights 
situation in Tibet. Yet at the same time, by the report's own 
reckoning, religious freedom in Tibet diminished, and the 
Chinese Government launched a 3-year campaign against religious 
exercise.
    Given the inefficacy of admonitions in the Beijing regime, 
what more can be done to address this deteriorating situation 
in Tibet? We would welcome your recommendation.
    Mr. Seiple. As we point out in the report, this has not 
been an easy time with our relations with China and primarily 
because of the human rights abuses. This has not been a year 
when the human rights situation has improved. It has remained 
consistently bad. You are right to point out the widespread 
abuses in Tibet and, of course, we could go to other parts, as 
you will hear today, of China, as to how that happened.
    The silver bullet for making all of that right, for getting 
the attention, I don't know. We will continue to look for a 
dialogue that produces results. We will continue to talk to the 
Chinese in terms of the international covenants they have 
signed which clearly spell out their obligations for mutual 
accountability to the global community, on what they are doing 
in places like Tibet.
    Mr. Gilman. Thank you very much, Mr. Ambassador.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Mr. Ambassador, I noted and I was glad that you undertook 
the trip to China last January; and one of the first items 
mentioned in U.S. action to promote religious freedom abroad in 
the Executive Summary was to raise the issue of Bishop Su of 
Hebei province.
    I had met with Bishop Su when he was briefly out of prison. 
He requested the meeting, and he actually celebrated mass with 
our human rights delegation, and then for that, apparently, he 
was rearrested and has spent time in prison, and now his 
whereabouts remains somewhat of a mystery.
    In explaining that the new law does have some sanctions, 
however modest those sanctions may be, however waivable those 
sanctions may be, did you get information concerning Bishop Su 
then or now or any time in between those conversations almost a 
year ago? Second, did they take you as if you had credibility 
when you say that there are some things, penalties, that could 
be imposed if there is not a mitigation of your violations of 
these basic human rights?
    I would like to yield.
    Mr. Seiple. As we point out in the report, the whereabouts 
of Bishop Su Ahimin is still, as you say, unknown. Everyone 
that has gone and every high-ranking official that has brought 
up this individual in this particular context has gotten the 
same information. We have not been allowed to see people. We 
have not been allowed to visit priests that had been put in 
prison, even though, in many cases, as I pointed out to them 
when I was there in January, if you would let me go and talk to 
the priest, maybe we could put to rest the provocative stories 
that are coming out around the world. Still they would not 
allow me to go. They would not allow our embassy to go.
    So our information comes from other sources. I think it is 
good information, but it hasn't come from government.
    Have we been ignored as a representative of this country in 
terms of human rights? We don't have much to point to in this 
last year, except that we had been faithful and persistent in 
explaining the position, explaining our desires to promote 
religious freedom, not to take punitive actions and point 
fingers and act in a judgmental fashion but to find ways to 
take the ball forward in a way that can be helpful to the 
government as well as to the people who this day are repressed.
    Whether there are larger issues that overshadow this, they 
are very concerned about their anniversaries. They are very 
concerned about their economy. They are very concerned about 
the bankruptcy of the Communist ideology. Maybe there are other 
issues that overshadow this. But they know as a part of our 
foreign policy--and I think by designating China, it may have 
been a surprise, but by designating China, they know that we 
are not going to sweep any of this under the rug when it comes 
to our bilateral relationship.
    Mr. Smith. There is no doubt that light acts as a 
disinfectant, and it is certainly helpful and gives us more 
moral suasion when we would deal with them. But, again, did 
they convey back to you then, or at any time since, that they 
take seriously the fact that some penalty might be imposed upon 
them, some kind of sanction so that they might curb some of 
their more egregious behavior?
    Mr. Seiple. I have to answer that somewhat indirectly, 
because specifically we never posed that with an answer to come 
back. I think the penalty for the Chinese in a global community 
is putting them in the group that we have designated today. I 
think that is the largest thing we could have done to them.
    I think that they will care more about that, and again from 
indirect intuition and conversations with a wide variety of 
Chinese in this last year, I think that will mean more than any 
specific sanction that ultimately comes with the letter that 
you will be receiving shortly from the Secretary.
    Mr. Smith. I do hope you are right. I know that you are 
very sincere and you believe that and it is likely that it 
could lead to some good and we all certainly hope that is the 
case.
    Let me just ask you and really followup to Mr. Gilman's 
question with regards to those countries that are included and 
those that somehow didn't make the bar. Were there countries--
did the President accept your recommendations in its totality? 
Were there some like Saudi Arabia which again had that very 
clear definitive, declarative sentence that there is no 
religious freedom in Saudi Arabia and we do know that there are 
arrests. We know that there are punishments, including the use 
of torture, against people, especially if they convert from 
Islam to Christianity.
    It is hard--it seems to be a real stretch to say they 
shouldn't be included in the list, even if our relationship as 
it is, is strategic and close, all friends commit human rights 
abuses, since we are a mirror perhaps, why weren't they on 
there?
    Was there any kind of political vetting that went on with 
regards to this country's too much of a strategic ally or was 
this the plain, unvarnished truth?
    Mr. Seiple. This is the plain, unvarnished truth. We do not 
look for political justifications. We didn't talk to folks who 
perhaps would bring that to the fore. We looked at the facts 
and, again, took the facts up against a very high standard. If 
you look at the standard that I mentioned before, the standard 
that comes out of the act, we tried to be very faithful there, 
but as you look at that standard, it is systematic, ongoing and 
egregious.
    There is no question that Saudi Arabia is systematic, 
ongoing and egregious in terms of the persecution as it is 
defined in the act, not in the period of the report. I had a 
conversation with their foreign minister last February, and we 
talked about in these very narrow lines of realpolitik for us 
to negotiate--can we get non-Muslims worshipping privately 
without threat of the Mutawwa coming in and harassing them, 
beating them up and everything else? I got from him a 
commitment that that would not happen. Non-Muslims can worship 
as long as it is privately, and they can worship in a secure 
environment.
    To date, in the preparation of the report time, that has 
been a faithful keeping of the word. That is not a major 
victory, it is not a large step, it is a very small step, but 
in a very difficult context. We want to move the ball forward, 
and I think that is positive. I think we have a government 
there willing to work with us within fairly tight restrictions. 
We wish it would be better. We wish that there would be 
optimism to our way of thinking about this and the 
international covenants that the global community has come up 
with, but we have made progress in terms of Saudi Arabia over 
where we were.
    Mr. Smith. Let me just ask you briefly about Vietnam, 
because that is something that other Members and myself 
included in our opening comments. Many of us know many people 
who have recently immigrated from there. We work with human 
rights organizations, and there is a question as to why that 
country was not included as well. Maybe there is a good answer, 
and we look forward to hearing that. If you are outside the 
official government structure, as in China, you are in for 
almost like, very severe limitations, including incarceration. 
We know that they, just like China, impose a quota on the 
number of kids you can have. That two child per couple policy 
has real religious significance especially when Catholic and 
other Christian denominations speak out against that. As a 
matter of fact, they can be arrested for it.
    What about Vietnam?
    Mr. Seiple. First of all, I am not here to defend any of 
these countries. Obviously, a lot of them are closed cases.
    This was my 12th trip into Vietnam last July. I know the 
country well, I know the people well, and I know the groups 
well. What I have seen over the last several years, although 
this was my first year and my first visit going in for 
international religious freedom and had confirmed by every 
religious group that I met with, Catholics, Buddhists, 
Protestants, evangelical Protestants, both belonging to the 
Temlon Church and other groups, that would be more coming out 
of the hills, tribesmen and so on. Every group I talked to 
assured me that things were better in terms of religious 
repression in the last 5 years. Things had come to a better 
place than they had been.
    Now, the shoe can drop at any time and things can change. 
But in the period of this report, we saw progress, we saw 
general amnesties for the first time. Many of the people that 
had been in prison had been let out. We have been led to 
believe that there will be more amnesties. We have seen the 
Marian devotion at Le Van. Last year, 100,000 Catholics were 
allowed to gather. This year that group is 200,000. This is 
progress.
    Will it continue? I don't think we should be Pollyanna-ish. 
I think we have to watch it closely. We have a tremendous 
Ambassador in Pete Peterson there making these same cases and 
these same points with the Vietnamese government. It was a 
close call, but there was progress. They were receptive to 
diplomatic initiatives, unlike some of the countries that have 
been on the list.
    Mr. Smith. Thank you. Let me just followup. In Vietnam, 
reliable sources have described the Dien Bien region as the 
center of a new anti-Christian campaign by Vietnamese 
officials. Vietnamese government documents support these 
reports.
    One particular document describes a pilot project aimed at 
preventing the growth of Christianity throughout the country. 
In certain areas of Vietnam, government officials encouraged 
villages to attend seminars to learn about the government's 
attitude toward Christianity. Villages are required to sign a 
statement promising that they will not study the Christian 
religion or take part in any Christian activities such as Bible 
reading or worship services, and they will actively tell them 
not to participate in the Christian religion.
    I was just wondering, is this something that your 
commission is aware of, is looking into, has spoken out 
against?
    Mr. Seiple. I think you are talking about many of the Hmong 
tribesmen, and we spent a lot of time on this issue in order to 
understand it, in order to help the Vietnamese understand it. 
By the way, these are the folks that fought with us back in the 
1960's and 1970's, and we should look for ways not only to take 
their part but to raise their issue to the Vietnamese in terms 
again of the international covenants that they have signed, and 
we have done that.
    It is complicated. Some are Christian, some are millennial 
cults, and unfortunately, the Vietnamese government, not 
knowing the difference, could come down with a hammer on all of 
them. It is complicated, because they are historic enemies. As 
I say, they fought on our side. It is complicated because of 
the ethnicity and their location on the borders.
    Again, in my recent trip, we spent probably the majority of 
the time with every person we talked to talking about this 
issue. If these issues that have come to light since the 
closing of the report continue to rear their head, we can come 
back, obviously, and make them a country of particular concern. 
I hope that won't happen, I hope the diplomacy will work, but 
obviously we have that option.
    Mr. Smith. Thank you, Mr. Ambassador.
    Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman.
    First, I am not a Member of the Committee, and I want to 
thank you for the opportunity to be here and also for your 
helping in getting this passed. I think the record should show 
that Chris Smith has done more to help the persecuted, the poor 
and the suffering than just about almost anyone else in the 
Congress. So I just want to thank you for that and thank you 
for having the hearings.
    Mr. Ambassador, I want to welcome you here and thank you, 
too, for the work and for the report. I have a couple of 
questions.
    At the outset I was just wondering, China is of a 
particular interest, and it was one of the countries that you 
named. In the text on China, you never used the word 
``persecution'', and looking in Afghanistan the word 
``persecution'' is used on page 4 of the report for 
Afghanistan. What would lead you to use the word 
``persecution'' in Afghanistan and not use the word 
``persecution'' in China? You used the word--or the government 
in the report used the word ``restrictions.'' What would be the 
difference there?
    Mr. Seiple. Let me answer that in general. First of all, we 
did each country separately. I am delighted that you read the 
reports to find that word. I am chagrined that you found that 
word by reading the reports carefully, but let me say that we 
tried to write without any kind of volatile----
    Mr. Wolf. I didn't mean that as a criticism, just so you 
know. I am just trying to get the sense if there was a style of 
writing.
    Mr. Seiple. I appreciate that. The style of writing was to 
be in a narrative style without volatile language. A statement 
of facts, just stating the facts as we know them, without 
biasing the fact with a word that carries a little bit more 
emotion than perhaps we want in the report. We felt in the 
countries-of-particular-concern exercise we could do the 
denunciation, and that is where we would use the language that 
would specifically talk about persecution. Persecution is an 
important word to us. I am not sure how it escaped in one and 
not the other, but we take it seriously in terms of the 
definition that the act provides us with.
    Mr. Wolf. Thank you.
    The law prescribes several actions by the State Department: 
web site, training at the Foreign Service Institute, prisoner 
list. Where does that sit with regard to those three?
    Mr. Seiple. The web site is up and running--www.state.gov. 
You don't have to have your own hard-bound copy, but that is 
there. We have worked extensively with the Foreign Service 
Institute specifically in two areas: What are the courses that 
are going to be provided on this issue for incoming Foreign 
Service Officers, and what kind of training will we give our 
Ambassadors before we go into the field?
    In terms of the prisoner list, we have a lot of work to do. 
Where we have them, they have been collected and collated in 
our office. As you point out correctly by the act, we are the 
office that is supposed to keep them. In many countries, they 
are up to date and up to speed, and we are pleased with how 
complete they are. In some countries, we are still working on 
that.
    Let me say in that regard, and this is also back to 
Chairman Smith's comment earlier, any of the information that 
you have that perhaps we don't have, we would love to take it 
off your hands to make sure that it gets into the next report, 
or if there is a correction that has to go into the country 
reports that come out in January that we can make that 
correction as well.
    Mr. Wolf. I would share the comment that was made by the 
Chairman, Mr. Smith, and also Chairman Gilman with regard to 
several of the other countries, Vietnam and North Korea, but I 
am not second-guessing you, obviously, and I think it is a 
process that you are moving through. I think the list that you 
selected--Burma, China, Iran, Iraq, and Sudan--nobody could 
question, and maybe, looking at it from your point of view, 
there has been a minor improvement and maybe that is a reason 
not to be on the list. I think the fact that you made a fair 
report at the outset sends the message that the next time 
another country comes on that they will show that they are 
slipping back, rather than making progress. So maybe the fact 
that you have only limited it to these is really appropriate. 
But I think there are some other countries that other Members, 
myself included, think that should be on there.
    I think the question that I have is of the enforcement. I 
think the fact that China made it is enough, to a certain 
degree, but I think you are going to have to do more, and my 
sense is the first enforcement that you take will be watched by 
the other countries. I think it ought to be tough, but I think 
it ought to be fair. I think it ought to be something that an 
objective group of people would look at and say, this is tough, 
but this is certainly, certainly fair, and I would emphasize 
fair as well as the tough.
    But that all eyes will be watching, because if it gets to 
the point that you make this list and nothing really happens, 
then some of these countries will almost view the list as a 
badge of honor because of the types of some of the people that 
are running some of these countries. I can almost hear some of 
the prison wardens just kind of feeling that they are really 
doing great because they made the list versus the other.
    So I think how you enforce it and when you come out with 
whatever it will be--and of course, in the bill, the list 
ranges from almost nothing to fairly significant. But I would 
just urge you to be very, very careful, because everyone is 
going to be watching. It is like when you are in school and the 
first person is punished, I think it sends a message to 
everybody else. We go from a private demarche, which would be 
irrelevant, to prohibiting the U.S. Government from procuring 
or entering into a contract for the procurement of any goods 
for the foreign government. So there is a big list that I know 
you are going to have a tough job with, but I hope it is tough 
enough but fair enough that it sends a message to everyone that 
is not on the list.
    I think also, because of the credible job that you have 
done here, and I think if the enforcement is tough enough, 
although fair, my sense is you are going to find other 
countries doing certain things to make sure that they are not 
on the list. I think you are going to find people who are never 
arrested solely because a country doesn't want to be on the 
list. I think you will also find that some of the jail cells 
are open and people get out because they don't want to be on 
the list. Every year, it is like the battle for MFN in the old 
days with the Soviet Union and others, things would improve. I 
think your list may do more good that we never really see. But, 
it is the crack down that doesn't take place because the list 
is ready to come out. So I think how that is done is very 
important.
    One other--or two other questions. On page 7, you said, in 
some instances like Saudi Arabia, those countries are beginning 
to take steps to address the problem. What steps is Saudi 
Arabia taking?
    Mr. Seiple. The step that I mentioned in terms of Saudi 
Arabia was the commitment that not only could non-Muslims 
worship privately, but they would worship without harassment. 
That was not the case--was not always the case; and, as I said, 
in the period of this report, they kept their word.
    Mr. Wolf. So next year, you will go and look to see if that 
commitment was kept. If it was not kept, that would be a 
negative for them; if it were kept, that would move them 
farther forward?
    Mr. Seiple. We would like to see a continuum going forward. 
We are in the business of promoting international religious 
freedom and, as I said, with Saudi Arabia the steps are going 
to be small. It is going to take lots of time, but I hope this 
is the first of many steps.
    Mr. Wolf. Positive reinforcement can be as effective as 
negative.
    Mr. Seiple. Absolutely.
    Mr. Wolf. So I think it is the carrot and the stick.
    One last question. Very, very appropriately I see you added 
the country of Sudan on the list, and we know you know 2 
million people have died. I am sure you watched or have heard 
about the movie Touched by an Angel and how they covered it, 
Senator Brownback's recent trip there with Congressman 
Tancredo, and I think it is so factual that nobody can even 
debate this issue. I am pleased that it is on. I have been 
concerned. You have China and Sudan, you almost get a two-for 
with regard to this.
    The Chinese National Petroleum Company, who wants to raise 
capital in the United States, has a project in Sudan. Their 
main foreign investment is the oil fields and the construction 
of a pipeline in Sudan. If our government allows Sudan to earn 
an estimated $500 million, which I have seen in the articles 
that they want to use for buying more weapons to kill more 
innocent people, you will have a problem of the listing of the 
Chinese National Petroleum Company. They get the oil, they get 
the revenues, Sudan doesn't have to purchase oil on the open 
market, so they have more that they can use to kill people, and 
then they get $500 million of revenue from this that they can 
buy and develop an armament industry.
    I have written to the Chairman of the SEC and the New York 
Stock Exchange asking them not to allow CNPC to raise capital 
in the U.S. I mean, to think that schoolteachers and retirees 
might unwittingly invest in it, and I am a Presbyterian--maybe 
the Presbyterian fund for ministers will invest in it? Most 
people wouldn't know how CNPC is invested in Sudan. To think 
that American dollars of teachers and religious leaders or 
insurance agents or anybody would be invested on the New York 
Stock Exchange which would allow the Chinese National Petroleum 
Company to earn revenue.
    Then also where the PLA and others can do what they are 
doing, and we know in Tibet and places and in China, and also 
enable Sudan to proceed with the war, would you speak, or would 
the government speak certainly to the SEC and explain the 
concerns that the State Department has with regard to 
terrorism? There are many terrorist training camps in Sudan. 
The Sudanese government was implicated in the assassination 
attempt on President Mubarak, and the people who did this are 
still there in Sudan. There are stories of slavery and 
everything else.
    Would you feel it is appropriate--and I would urge you if 
you do, I don't want to ask you anything that is not--but for 
the State Department to consider contacting the Securities and 
Exchange Commission, a Federal agency, and the appointments at 
the SEC are made by the President, confirmed by the Senate, to 
not list--to urge the New York Stock Exchange and Mr. Richard 
Grasso not to list this company on the New York Stock Exchange 
for several reasons. One, China has now made the bad list, 
Sudan has now made the bad list, and by listing this company, 
we are not even providing a sanction, we are providing actually 
an encouragement, and I hope they won't be listed.
    Mr. Seiple. That is a very interesting point.
    Obviously, people at the State Department working on 
Sudan--and our office works a great deal on Sudan--are very 
concerned about what happens to the dynamic of a 16-year war 
once you have this income stream coming into the north. I would 
appreciate very much getting a copy of the letter that you have 
sent, and maybe this is an area where we could work together to 
do some good.
    Mr. Wolf. Good. I would appreciate it.
    Again, let me just personally thank you and thank all of 
your staff for the good efforts and work.
    Years ago, there was a Congressman Mike Barnes who passed a 
bill to raise the drinking age to 21, and I remember supporting 
the bill on the floor at that time and saying, because of his 
efforts, there will be a lot of people who never get the 
telephone call saying that their son or daughter is dead. 
Because they don't know why. It is just because that law made a 
difference.
    My sense is that if this is pursued as the way you have 
been doing, there are many people who will never be thrown into 
jail, many people who will never make the web site and maybe 
people who will just never have the problem solely because this 
commission and the notoriety and the sanctions will keep 
countries in check who care deeply about what the United States 
and the west think. So, for that, future generations who won't 
even know about this report or about your position will really 
be able to be helped. So thank you very much.
    Again, Mr. Chairman, I really appreciate you holding the 
hearing to do this. Thank you very much.
    Mr. Smith. Thank you very much, Mr. Wolf.
    Let me just conclude with a couple of followup questions, 
and we will submit a number of questions for the record and ask 
you, if you would, to respond.
    The first is with regard to Iran. I noted in the September 
29th Jerusalem Post, Secretary Albright suggested that the 13 
Jews now being held in Iran will not be executed, which 
obviously is good news. But do we have information as to 
whether or not they are being held simply because they are 
Jews? Has there been any work done by the Bureau to determine 
whether or not they are truly innocent victims and hopefully 
are going to be released?
    Also, the situation of the Baha'i. As we know, there was an 
execution about a year ago of a man who was accused of 
converting a woman from Islam to Baha'i. There are Baha'i on 
death row, two simply for, quote, ``apostasy.'' What can we do 
to try to effect their release or at least a downgrading of 
their sentence?
    Mr. Seiple. Both of these issues are somewhat long-
standing. Obviously, the Baha'i is for a much longer time. Both 
of them are very egregious, both of them speak I think to the 
act and partially, certainly on the part of the arresting of 
the 13, why we have that designation of country of a particular 
concern. The conjecture, the conventional wisdom is that they 
are not spies. Everyone has said that that knows them inside 
and outside the country. The conjecture is that this is part of 
the ongoing debate, fight, conflict within Iran between the 
moderates and the clerics. We are concerned about that debate 
and how innocent people might get chewed up in the debate.
    The person that you mentioned conducting the investigation, 
the judiciary minister, he was one who had called for the 
assassination, even before the investigation was finished, the 
investigation that his ministerium leads. This, obviously, 
produces a chilling effect. We would like to have more leverage 
in that country than we do, but we have lots of friends, allies 
who are working this issue with us. It is one that we have been 
very, very clear since it started. They know the seriousness of 
this, and we will continue to pound away as we must and as we 
can along with our allies to make sure that this is properly 
and quickly resolved.
    On the issue of the Baha'is, you have a classic case that 
fits the act of a government that consciously, in an egregious, 
systematic, ongoing way, on the basis of faith, tries to 
persecute and does persecute. Of the 300,000, 350,000 Baha'is 
that are still living in Iran, this also is a very difficult 
time for them to live under that repression. We will do 
everything that we can--whether it is 350,000 people or 13 
people or one person, we will do everything that we have within 
our power to do to make sure that the repression stops.
    Mr. Smith. Thank you. I really appreciate that.
    On Russia, I noted in the report you used with regard to 
the 1997 Russian law that it was a potentially discriminatory 
law. I will never forget, both Mr. Wolf and I undertook a trip 
a couple of years ago as this law had just been signed by 
Yeltsin, and we were talking about our hopes that it would not 
be enforced or perhaps even overturned by the court, their 
court, because aspects of it are such that it could very easily 
lead to draconian measures against religious believers and 
especially groups that would then be left out of the mainstream 
and would not be able to operate under the law.
    Since this report has been issued, has there been any 
degradation or diminution of religious freedom under that law? 
We are all watching with bated breath and hoping that it does 
not become very quickly what it could become.
    Mr. Seiple. That is the problem, the potential for it and 
the chilling effect of waiting for the other shoe to fall. 
Russia does not have the best implementation system in the 
world when it comes to their laws and so you have an even more 
uneven implementation of this particular act. In some places 
there is total freedom and in other places people are harassed.
    This was a giant step backward, it was pointed out by 
everybody from the President on down when they did it. It was 
contradictory to their own constitution. We wish that they had 
stayed with their 1990 progressive law. We will have to 
continue to follow this, but, at this time, we think we have 
the attention and we think, as I mentioned in my statement, 
that we blunted any effectiveness of this going in a negative 
direction.
    Mr. Smith. Let me just ask one final question, Mr. 
Ambassador.
    Uzbekistan was not identified as a country of particular 
concern, and your testimony notes positive changes in recent 
months, including reports that large numbers of Muslim 
prisoners may have been released. That claim of a large-scale 
prison release was made by the Uzbek government itself. Was it 
credible, in your view, and has the Uzbek government given any 
information about the actual charges against these prisoners or 
any details identifying their cases?
    Mr. Seiple. The report was that 300 Muslims would be 
released and that as many as 1,000 or 2,000 would shortly be 
released. The Uzbekis have made that statement. That is no 
longer an allegation. In terms of seeing the flesh of those 
folks walk out of prison, we cannot yet report that that has 
happened. The Uzbeki government, however, has taken steps to 
release other prisoners, they have taken steps in a positive 
direction to allow for registration, and they have taken steps 
to look at, as you pointed out, that most horrific law that 
they put together in 1998, and hopefully we will see some 
amendments in the future.
    So there has been progress in Uzbekistan, more hopefully to 
come, obviously much to watch.
    Mr. Smith. I would just note that we are planning on the 
Helsinki Commission, which I also chair, a hearing probably on 
the 18th, it is not set in concrete, on Uzbekistan and the hope 
is to try to get further into that issue and other issues as 
well on human rights.
    I do have one final question and that is on Turkey. 
Ambassador Hal Koh and hopefully I and many others will be 
traveling over there for an OSCE ministerial. Yet many of us 
are concerned about human rights in general, whether it be the 
use of torture, which I raised during a bilateral recently with 
a number of parliamentarians, and the responses were very 
interesting. It wasn't complete denial, but it remains a major 
problem.
    But 3 weeks ago we were told police raided a Turkish 
Protestant church in Izmir and arrested 40 Christians. This 
past Sunday the Istanbul security police interrupted a morning 
worship service, arresting most of the adult members of the 
congregation, along with 11 foreigners and five children. On 
August 3rd, a Turkish Christian was arrested for selling 
Christian literature at a convention for intellectual 
discussion and exchanges. He was reportedly beaten and then 
released without formal charges.
    In your view, are these signs of increasing religious 
hostility toward non-Muslim faiths in Turkey?
    Mr. Seiple. Very disturbing, very troubling. We have the 
same reports.
    As soon as they came, we started working on them with our 
desk and with the Turkish, our own embassy there. I think it is 
something that we should be deeply troubled about, because this 
is a close friend and ally. If you can't tell candid truth to 
close friends and allies, who can you tell them to? When we get 
to that point where your visit is ongoing, we would like also 
to do some briefing on this situation and others that ought to 
be brought to the attention of the Turkish authorities.
    Mr. Smith. I do appreciate that.
    Mr. Ambassador, thank you very much for your testimony. 
Thank you for the good work of your commission.
    I hope you have sufficient resources, and it is something 
you might want to comment on, if you have any closing comments, 
whether or not you have sufficient staff, who are I am sure 
overworked and working many long hours not only to put this 
together but to continue their fact-finding and also to develop 
a strategy for implementation of what is outlined in the bill. 
So if you have any comment on that, please.
    Mr. Seiple. I think it is illegal for me to lobby for more 
money to Congress, so please cut me off whenever you think I 
have crossed that ethical line.
    I have been in government now for one whole year. I have 
been aghast at how underfunded and under-resourced this 
government funds its arm into the global community. At a time 
when we have all of the advantages of being the sole remaining 
superpower in this transitional period, when we can be doing so 
much by way of preventive and preemptive diplomacy, we are 
suffering the death of a thousand cuts. It is not just our 
bureau, it is not just getting mandates without funding--
although that is true. I see it throughout the State 
Department.
    I bring that to your attention. Thank you. I wouldn't have 
said it if you hadn't asked, but I bring it to your attention 
more as a private citizen who has only been in government for a 
year. The taxpayers might feel good about that. I think we are 
mortgaging the future.
    Mr. Smith. I appreciate that. Just for the record, we are 
trying to up at least the amount of money available to the 
Democracy, Human Rights and Labor Bureau, Secretary Koh's 
bureau. We envision at least a doubling. My travels, and you 
might see this as you travel, have underscored in virtually 
every mission that I have visited--particularly when we are in 
an area that is a frontline country where human rights are 
nonexistent or violated to some extent--that the human rights 
officer very often is outmanned or is a very junior Foreign 
Service Officer. The number of Commerce people far exceed him, 
usually to the second and third power. There are just so many 
more of them, and less of the people who care about human 
rights.
    I am often told, ``Well yes, but it is the Ambassador's 
portfolio to deal with human rights as well,'' and that is 
true, but we do need specialists who just do nothing but or 
spend a major part of their time in government service working 
on that. We are trying to increase at least that portion of it.
    I do appreciate your comments, and I admire your work.
    Mr. Seiple. Thank you.
    Mr. Smith. The Subcommittee will resume its sitting.
    I would like to introduce our second panel beginning with 
Ms. Nina Shea, a member of the U.S. Commission on International 
Religious Freedom, as well as the Director of the Center for 
Religious Freedom at Freedom House. As a lawyer specializing in 
international human rights for the past 12 years, she has 
focused exclusively on the issue of religious persecution. Ms. 
Shea is the author of ``In the Lion's Den,'' a book detailing 
the persecution of Christians around the world.
    Second we will be hearing from Mr. Stephen Rickard, who is 
the Washington Office Director for Amnesty International, USA. 
Previously, Mr. Rickard has served as the Senior Advisor for 
South Asian Affairs in the Department of State, as well as a 
professional staff member for the Senate Foreign Relations 
Subcommittee on Near Eastern and South Asian Affairs.
    Next, Dr. Paul Marshall is a Senior Fellow at the Center 
for Religious Freedom at Freedom House and is the editor of 
that organization's survey of Religious Freedom Around the 
World. The author of 16 books, Dr. Marshall is also a visiting 
fellow at the Claremont Institute and an adjunct professor of 
philosophy at the University of Amsterdam.
    Fr. Nguyen Huu Le is the Executive Director of the 
Committee for Religious Freedom in Vietnam. He served as a 
Catholic priest in Vietnam until the Communist government 
ordered his arrest in 1975. He was captured while trying to 
escape and spent the next 13 years in various reeducation 
camps. In 1978, he and four other prisoners escaped but were 
recaptured and tortured, two of them to death. He was shackled 
in solitary confinement for 3 years. He was released in 1988 
and escaped to New Zealand where he served as the chaplain for 
the Vietnamese Catholic congregation.
    Abdughuphur Kadirhaji is a Uighur Muslim from Urumqi City 
in Xinjiang, China. For the past 15 years he was worked as a 
manager and then director of the Xinjiang Uighur Autonomous 
Region Government Foreign Affairs Office. He came to the United 
States in March of this year and is currently living in 
Virginia with his family.
    Mr. Smith. Ms. Shea, if you could begin.

STATEMENT OF NINA SHEA, DIRECTOR, CENTER FOR RELIGIOUS FREEDOM, 
                         FREEDOM HOUSE

    Ms. Shea. Thank you, Mr. Chairman.
    On behalf of the U.S. Commission on International Religious 
Freedom, I wish to thank you for holding these critically 
important hearings today. Mr. Chairman, your stalwart support 
over many years for religious freedom throughout the world and 
your championing of the International Religious Freedom Act 
itself is to be heartily commended.
    I must say it is a real personal honor for me to be 
addressing this topic in front of some of the great standard 
bearers in the House of Representatives of religious freedom 
for persons all over the world--Congressmen such as Frank Wolf 
and Congressmen Pitts, Gilman, Lantos, Burton and yourself.
    Continued attention on the part of the Congress to this 
most fundamental issue is, in the Commission's judgment, 
essential to mobilizing the appropriate foreign policy tools to 
deal with religious persecution abroad.
    I am appearing here as the representative of the U.S. 
Commission on International Religious Freedom of which I am one 
of 10 commissioners. Our Chairman, Rabbi David Saperstein, and 
Vice Chairman, Michael Young, are both on travel today at 
conferences dealing with issues relating to religious liberty. 
Ambassador Robert Seiple, who is a witness for the State 
Department, is also on our Commission as an ex-officio member.
    As you know, the Commission was established under the 
International Religious Freedom Act of 1998, which also 
mandated the State Department report that we are discussing 
today. The Commission is charged with advising the President 
and the Congress on strengthening religious freedom and 
combating religious persecution worldwide. It is part of the 
Commission's mandate to evaluate the decisions of the 
administration whether to designate a country for particular 
concern and to recommend effective responses where appropriate. 
In a few weeks, we will be holding our own set of hearings on 
the State Department report.
    Last month, the Commission welcomed the release of the 
State Department's first Annual Report on International 
Religious Freedom. Over 1,000 pages in length, it reflects a 
monumental effort on the part of Ambassador Robert Seiple and 
his Office on International Religious Freedom at the Department 
of State. We appreciate that producing this report may have 
been a cultural wrench for the State Department and Foreign 
Service Officers who are accustomed to dealing mostly with 
human rights reports on political persecution and political 
prisoners.
    Of course, it is always possible in this type of exercise 
to critique specific country reports, but as the first historic 
attempt by the State Department to describe the status of 
religious freedom worldwide in one compilation, it is a step in 
the right direction. We again express our appreciation to 
Secretary of State Madeleine Albright and Ambassador Seiple for 
their diligence in producing the report.
    What is most extraordinary, Mr. Chairman, however, is the 
priority listing of countries of particular concern, or CPC's, 
that the State Department released at today's hearing. The 
report itself contains an overwhelming and unselective 
compilation of facts and information without reaching 
definitive conclusions or conveying a sense of priority. In a 
report of this magnitude and type, prioritizing American 
concerns becomes essential. Not to do so is to lose sight of 
severe persecutors in a welter of detail. Congress wisely 
understood this danger and foresaw the need to give real focus 
and priority through CPC designations.
    The Commission is especially pleased that the governments 
of China and Sudan are on State's brief CPC listing and will 
receive appropriate focus and the concerted attention of the 
U.S. State Department, the Congress and our Commission, as well 
as others in the nongovernmental sector, by virtue of this 
designation. It is this CPC designation that triggers under the 
act a Presidential announcement within 90 days of what policies 
the administration will adopt to improve religious freedom in 
the countries in question.
    China and Sudan are the two countries that the U.S. 
Commission on International Religious Freedom has decided to 
review during its first year of work as countries with severe 
and ongoing problems of religious persecution, China has the 
world's largest number of religious prisoners while Sudan's 
government is waging the largest genocidal war in the world 
today, replete with enslavement, scorched-earth bombings and 
calculated starvation against its religious minorities in the 
south and central part of the country.
    Arguments can be made that many other countries should be 
included on today's list. Mr. Chairman, I think I have a 
different take on the question of the selectivity or the 
brevity of the list than you do. I believe that the issuance of 
this highly selective CPC list that includes China, the world's 
largest religious persecutor, and Sudan, the world's most 
hideous persecutor, will send the strongest possible signal 
both to officials here and to governments throughout the world 
of a renewed recognition of the salience of religious freedom 
to American foreign policy.
    I believe there is no better way to help the persecuted 
religious believers in Vietnam, Pakistan, Egypt, North Korea, 
Saudi Arabia, and elsewhere than to see China and Sudan become 
first cases on a short list of countries where the U.S.--and if 
the U.S.--is prepared to spend political capital to end the 
scourge of religious genocide and persecution. Targeting a 
powerful nation like China and a rogue state like Sudan in a 
foreign policy priority listing signals that business may not 
be conducted as usual, that the United States may be adopting a 
zero tolerance policy for hard-core religious persecutors. This 
possibility of a change in movement in foreign policy will be 
the best assurance to persecuted peoples everywhere. We have 
observed that foreign governments are keenly aware of the 
report and, as of this morning, are on notice that America has 
a deep, abiding concern for religious freedom for all peoples 
and may be prepared to act accordingly in its foreign policy.
    If this listing is meant for something more than a 1-day 
commentary, however, the United States must take appropriate 
followup action and apply pressure on the CPC's from its range 
of foreign policy tools. Two steps in particular should occur:
    First, the administration should exhibit leadership in 
making Sudan the pariah state with the same concerted moral and 
political action that succeeded in making a pariah out of the 
apartheid government of South Africa.
    Today's financial pages are reporting about the enormous 
amounts of international investments going into Sudan from 
companies such as Canadian Talisman Energy, Inc. China National 
Petroleum. Mr. Wolf made reference to this issue, and I would 
like to suggest that the record include an article from 
Investors Business Daily yesterday about this very issue of 
China and Talisman's investment in Sudan. According to the 
Speaker of Sudan's parliament, Hassan Turabi, the revenues from 
these oil investments will be used to shore up Sudan's military 
arsenal in its genocidal war.
    Ms. Shea. Second, the administration must demonstrate that 
the United States will not build its relations with China on 
sand and that America understands that appeasement of a 
government that persecutes as many as 100 million believers is 
neither consistent with our values or our tradition nor will it 
serve our long-term interests. History has demonstrated that 
American interests are best served by relations predicated on 
the defense of principles that are shared by civilized nations 
around the world.
    Mr. Chairman, the Commission believes that the 
administration has made a great forward stride in producing the 
report and, most importantly, in prioritizing American 
concerns. We look forward to working with the administration 
and Congress over the next critical 3 months when policies are 
to be developed regarding China, Sudan, and the other CPC's.
    It is critical now this process has begun that there be 
appropriate followup in terms of policy action. As Mr. Wolf 
stressed, all eyes will be watching how the list is enforced. 
If actions aren't tough, tyrants all over the world will be 
emboldened. In China, Sudan, and the other countries of 
particular concern, the lives of millions of religious 
believers are quite literally at stake.
    Thank you very much, Mr. Chairman.
    Mr. Smith. Thank you, Ms. Shea.
    I want to thank you personally for the work you did and the 
insight you provided for the legislation itself when it was 
under consideration. As you know, it went through many 
evolutions and it was changed very often. It went from 
Subcommittee to Full Committee and kept changing, but the 
essential character remained the same. You were very, very 
helpful in that process as an individual, and I do want to 
thank you for that and for the good work you do on religious 
freedom issues.
    [The prepared statement of Ms. Shea appears in the 
appendix.]
    Mr. Smith. Mr. Rickard.

   STATEMENT OF STEPHEN RICKARD, WASHINGTON OFFICE DIRECTOR, 
                     AMNESTY INTERNATIONAL

    Mr. Rickard. Thank you, Mr. Chairman. It is an honor to be 
invited to testify today before you on the first Annual 
Department of State Report on International Religious Freedom. 
Few people do as much day in and day out as you do to help 
human rights victims around the world, to raise human rights 
issues, and it is an honor to be here to testify before you and 
with the other distinguished panelists that I am appearing 
with.
    Winston Churchill reportedly said of Clement Attlee that he 
was a modest man who had much to be modest about, and I truly 
feel a little bit like Clement Attlee testifying here with Nina 
and Paul and with others who have actually suffered for their 
convictions and before you, Chairman Smith. I am very grateful 
and I would like to express appreciation on behalf of Amnesty 
and its members to the many people, yourself included, other 
human rights champions in the Congress, Frank Wolf, Nina and 
Paul and others who have done so much to raise the profile of 
this issue, to draw greater attention to it, to mobilize people 
on behalf of this issue.
    Four years ago, Amnesty International ran a worldwide 
campaign on the terrible human rights crisis in Sudan. We 
produced videos, materials, and I can assure you that the 
300,000 Amnesty members in the United States and the more than 
1 million Amnesty members around the world who sat at kitchen 
tables and in church basements and in high school classrooms 
writing letters to the State Department and to the government 
in Khartoum about the human rights crisis in Sudan are 
delighted and even thrilled that this issue is getting more 
attention. It certainly deserves it, and we welcome and 
appreciate the help of all of those who have put it front and 
center.
    I am also grateful for the work that you and they have done 
to build bridges between people working on human rights issues. 
That is extremely important. Not everyone has done that. There 
have been some harsh words spoken about the failure of some 
groups to work on these issues, particularly our colleagues at 
Human Rights Watch. I personally regret that, and I am 
delighted that others did not join in that chorus. They are 
fantastic colleagues who do great work, and I appreciate the 
work that people did to build bridges between people who cared 
about this issue.
    I don't want to duplicate the testimony that Nina, Paul and 
others will do on particular countries. Instead, I would like 
to offer some comments about policy, the issues of the record 
and report, and then look at a limited number of reports. My 
remarks are not intended to be a comprehensive survey; and, Mr. 
Chairman, with your permission, I might ask that we be able to 
submit some additional written materials, as you say in the 
House, to revise and extend my remarks, more to extend rather 
than to revise.
    Mr. Smith. Without objection, your full remarks and any 
submissions you or any other witnesses would like to provide 
will be made a part of the record.
    Mr. Rickard. Thank you very much, Mr. Chairman.
    [The information referred to appears in the appendix.]
    Mr. Rickard. Mr. Chairman, this is Amnesty International's 
very first ever annual report that was published in 1961, just 
a crazy group of people with the idea that individuals speaking 
out for individuals could make a difference. It says here that 
the core of Amnesty's work was going to be to defend people's 
right to practice Article 18 and Article 19 of the Universal 
Declaration of Human Rights. That was the original purpose of 
creating Amnesty International.
    As you well know, Article 18 is the article that states 
everyone has the right to freedom of thought, conscience and 
religion. This right includes the freedom to change one's 
religion or belief and freedom, either alone or in community 
with others, in public or in private, to manifest his religion 
or belief in teaching, practice, worship and observance. 
Pursuant to that founding purpose, the very first Amnesty 
conference ever held by an Amnesty section in Paris in 1961 was 
a conference on religious persecution.
    The very first investigative mission undertaken by Sean 
MacBride was a mission to Czechoslovakia to protest and 
investigate the imprisonment of Archbishop Beran and to 
investigate the other conditions of other religious prisoners. 
This is an issue that is very, very dear to our hearts, and it 
is a real delight to see a comprehensive report on this issue 
mandated by the Congress.
    Mr. Chairman, one of the shortest and most powerful credos 
over uttered was offered by the Apostle James when he wrote, 
``As the body without the spirit is dead, so faith without 
works is dead.'' Faith without works is dead. It is a powerful 
challenge to any person of conviction no matter what their 
particular religion or beliefs. So it is with any human rights 
report. Reports without action are dead. This is an impressive 
report. I agree with Nina's characterization of this report as 
a milestone. It is impressive, but much more impressive will be 
a comprehensive plan to assess the violations that it 
documents.
    The final legislation that the Congress adopted gave the 
administration a great deal of flexibility in terms of crafting 
a response to these abuses. In the abstract, everyone agrees 
that flexibility is a desirable thing to give policymakers. 
Let's hope that the administration uses that flexibility wisely 
and forcefully and doesn't give flexibility a bad name. Trust 
is essential. It is better when we are working together on 
these issues instead of at cross-purposes.
    As I have said in the past when I have testified before 
you, Mr. Chairman, all of the efforts of those in the State 
Department who truly care about human rights are, 
unfortunately, undermined by the perception that at critical 
moments when push comes to shove, the U.S. commitment to human 
rights takes a back seat to fighting for other goals. Whether 
it is fighting drugs or terrorism or promoting trade or the 
amorphous, ever-popular stability, there is, as I have said, 
the view that human rights remains in far too many ways an 
island off the mainland of American foreign policy. The report 
is impressive, and we look forward to impressive action that 
matches the problems that it documents.
    I would also like to say a few words about the role for 
Congress here. It is Congress that mandated the report. It is 
Congress that mandated the original report. It is Congress that 
mandated the creation of the Human Rights Bureau. In so many 
ways Congress has led the U.S. Government on human rights 
issues.
    But there are a number of critical things that the Congress 
could do, considered doing, and then did not do that I think 
would help to add additional weight to the effort that led to 
the mandating of this report. As we said, one of the most 
important things in the original Wolf-Specter legislation, and 
one of the things we were the most deeply disappointed about 
that was not adopted in the final form, was the beginning 
effort to turn back the tide on some of the incredibly 
retrograde steps that have been taken on the issue of political 
asylum in the United States. I commend you, Mr. Chairman, for 
leading that fight. It is a pity that you lost or that it 
wasn't in the final legislation, but I strongly encourage every 
American who cares about religious persecution to call, to 
write, to visit their Members of Congress to say that you don't 
believe that people fleeing persecution should have to run the 
gauntlet to achieve a haven from persecution in the United 
States. I don't believe that Americans, if they understood the 
current situation, would think that that is what the United 
States should stand for.
    Last, it is the fundamental constitutional responsibility 
of the Congress to determine how our tax dollars are spent, and 
you have led the fight to try to increase funding for human 
rights activities within the State Department, and I think that 
is extremely important. It is disappointing that the Department 
has resisted your proposal to increase funding for human rights 
activities. Even with the severe reductions in foreign affairs 
funding which have occurred in recent years and which 
Ambassador Seiple referred to, the priorities of the State 
Department are out of order. There can be more funding for 
human rights activities. There needs to be more funding for 
human rights activities within the Department.
    However, I also agree with Ambassador Seiple that the 
overall context of decreasing funding for foreign affairs 
activities overall also undermines our ability to have a 
powerful and effective human rights strategy. Speaking solely 
for myself and not for the administration and with the caveat 
that I at least for 2 years served at the State Department, I 
have to say that I have been increasingly reminded of the 
section of Exodus where Pharaoh says to his taskmasters in 
response to the appeals of Moses and Aaron, ``You shall no 
longer give the people straw to make bricks. Let them go and 
gather straw themselves.''
    If the Department of State wants the Human Rights Bureau to 
be an effective champion for human rights, it has to give it 
straw to make bricks. If the Congress wants the United States 
to be an influential and effective player on the world scene on 
behalf of human rights and other issues, the Congress needs to 
give diplomats the straw to make bricks so that they can build 
a firm human rights foundation.
    Mr. Chairman, I do have one very specific recommendation on 
a topic that I know you have been interested in. I think that 
this report is further evidence of the need for the Congress 
and the administration to work together to have a comprehensive 
approach to controlling the potential export of repressive 
equipment from the United States.
    The administration has said many times that they support 
this, that they don't want repressive equipment like electric 
shock equipment being exported from the United States, but we 
believe at Amnesty that in fact it has happened, that electric 
shock equipment, for instance, has been exported to Saudi 
Arabia, a country with a terrible problem of religious 
persecution and torture. I think that, given the statements of 
the administration and your own interest in this, there ought 
to be the opportunity to sit down together and come up with a 
proposal where we will manage these exports, at least as 
rigorously as we do, for instance, dual-use nuclear exports, 
where we say we are really going to watch where these go and 
how they are used and demand lots of documentation.
    Turning to the report itself, let me say overall that our 
initial review of the contents is quite positive. We have some 
disagreements, not all of them minor; but, overall, it would be 
wrong not to commend the Department, Ambassador Seiple and 
Assistant Secretary Koh for this important and useful document. 
Obviously, we have not had the opportunity to review all of it; 
and, as I said, I would like to just focus on some illustrative 
cases, not the case where religious persecution is the worst 
necessarily, not in any way a comprehensive survey, but a few 
countries that might illustrate whether or not the 
administration has flunked the litmus test for candor standard: 
that is, countries where there may be the greatest temptations 
to shade the truth.
    Saudi Arabia. One can hardly imagine a more forthright 
opening sentence than ``Freedom of religion does not exist in 
Saudi Arabia,'' and that is welcome candor, particularly with a 
country where there is great sensitivity. The State Department, 
however, in the text that follows is much more dry and 
mechanical in explaining the situation in Saudi Arabia, and I 
go into greater detail here, but substantively we think that 
much more could be said and said more forcefully about the 
degree of active harassment and persecution that exists within 
Saudi Arabia. There is an implication that, while they have a 
system of rules and if you follow the rules everything will be 
OK, that really doesn't capture the situation in Saudi Arabia. 
It is not bad, but in tone it can be much better in terms of 
describing the situation, and we think stronger language is 
justified.
    Israel. The Israel report unflinchingly addresses an issue 
that is not always addressed, which is the disparity between 
government support for Israeli Arabs and other Israeli citizens 
in terms of the quality of education, housing and employment 
opportunities that they receive. I think the report was quite 
candid, frank and comprehensive in covering this issue.
    One issue that it does not cover and should, and doubtless 
this is an area where we can work with them, is the issue of 
Israel's treatment of conscientious objectors, which in fact, 
is not very good. The trials that they use to handle those are 
not really free, fair trials. There are disparities in who gets 
exemptions and who doesn't. It is one area where we think that 
we need to work with the Department to raise the profile of 
this issue.
    The Caspian Sea region. This is an area where I think the 
report is good as far as it goes, but it illustrates a problem, 
which is that there is not as much information available. Some 
of the areas that are a little harder to get to, we don't have 
as many diplomats there. I list some of the items that have 
happened just in the last few months, probably after the report 
went to print, in that region which need to be reflected in 
next year's report, and we look forward to working with the 
Department to enhance the coverage of some of those areas that 
aren't in the headlines as much.
    I have talked about Turkey and Vietnam in my written 
report. Let me just say about both countries that the issue 
that we highlight, although there are a couple of places, 
particularly in the Vietnam report, where we think there is 
very important information that would have given a better 
picture of the degree of government hostility to outside 
scrutiny on this issue--they mention the reaction to the U.N. 
Special Rapporteur's report. They don't really give a sense of 
how vigorous it was. We welcome the fact that the U.S. backed 
up the Special Rapporteur on that, but we think that more could 
have been done to give a full flavor of the situation there.
    But in both of those countries and in several others, the 
key question is not what the report reports, the key question 
is policy. We take no issue with Assistant Secretary Koh on 
this, particularly his recent trip to Turkey. He was extremely 
forthright. We consider his trip an extremely important step in 
the right direction.
    There needs to be one U.S. policy on human rights in these 
countries which is supported across the board by the 
Departments of State and Defense and Commerce and by the U.S. 
Ambassadors and in the regional bureau, as well as Assistant 
Secretary Koh. It is not enough to send Assistant Secretary Koh 
and Ambassador Seiple out to read the riot act to people and 
then have others come in and smooth the ruffled feathers 
afterwards.
    Mr. Chairman, I address a number of other countries, and I 
would like to submit additional comments in writing. Let me 
just say, overall, we commend the administration's efforts on 
the report. It heeds Secretary Koh's promise to tell it like it 
is in most cases. There are cases where we look forward to 
working with them to improve the report.
    Mr. Chairman, religious persecution today is a depressingly 
ecumenical phenomena. Tyrants fear religion, and they fear 
people of faith because they claim openly to have allegiance to 
a higher authority. Tyrants fear people who perhaps have others 
outside of the national boundaries who care about them and 
worry about them and are willing to mobilize on their behalf. 
We owe it to those people to stand with them. This step is an 
important milestone in the right direction, and we look forward 
to seeing action to follow the report.
    Mr. Smith. Thank you very much, Mr. Rickard, for Amnesty's 
extraordinary work throughout the years.
    [The prepared statement of Mr. Rickard appears in the 
appendix.]
    Mr. Smith. Getting back to that 1961 document that you held 
up, we mentioned the resistance we are finding with regard to 
enhanced funding for the Human Rights Bureau. I think the 
record clearly shows, because you were part of that entire 
process as we went through various drafts, that there was an 
incredible resistance to the bill itself.
    Mr. Smith. We were told by very responsible people within 
the administration that we were establishing a hierarchy of 
human rights. If that were the case, those of us who supported 
sanctions against South Africa because of apartheid were wrong 
because we established a hierarchy saying racism is egregious 
behavior that would simply not be tolerated, and the same thing 
could be said about Jackson-Vanik and the fact that we actually 
risked superpower confrontation to promote the cause of Soviet 
Jewry I think that was one of our proudest moments.
    So I think you know we got here through a very difficult 
process. Now we need--and your words certainly and your work 
helps to enhance that--to continue to keep on our eye on the 
ball. As you said, quoting the Book of James, faith without 
works is truly dead.
    I want to thank you.
    Mr. Rickard. Mr. Chairman, I want to steal a line again 
that I stole from your staff director, which was that I regret 
the notion that we need to treat everyone equally badly. The 
only concern we have, and I think it is a legitimate concern, 
is that in an era of shrinking resources you can have some 
situations on some issues where you pit victims against each 
other. I know we all want to avoid that. That is why the effort 
to increase funding for these activities to give people the 
straw to make the bricks is so important. We applaud your 
effort in that direction.
    We like to see it go across the board on U.S. foreign 
policy issues. Again, I am speaking for myself on that point.
    Mr. Smith. Thank you, Mr. Rickard.
    Mr. Smith. Dr. Marshall.

STATEMENT OF PAUL MARSHALL, SENIOR FELLOW, CENTER FOR RELIGIOUS 
                     FREEDOM, FREEDOM HOUSE

    Mr. Marshall. OK. Thank you, Mr. Chairman, for the 
invitation to be able to testify this afternoon. I will 
concentrate my remarks on the report itself.
    I believe that after Boswell and Dr. Johnson had been 
invited to see a dancing dog Boswell remarked that the dog did 
not dance very well. Dr. Johnson replied, the wonder is not 
that it is done well, the wonder is that it is done at all. So, 
too, with the State Department's first annual report on 
international religious freedom.
    The mere fact that this report now exists is an important 
step and shows a growing awareness of the vital importance of 
religious freedom and religious persecution around the world. 
Since Members of this Committee have played an important role 
in that movement, you deserve our commendations. But, contrary 
to the dancing dog, the report is very well done.
    Currently, I am editing a survey, a world survey of 
religious freedom and working with about 60 writers and 
reviewers. So I am in a good position to cross-check much of 
the information in the report, and it is in general very good 
and often a mine of information. So I would like to commend the 
State Department and particularly the people who worked on this 
report.
    In addition, the list of countries of particular concern 
singles out some of the worst persecutors, including two on 
which Freedom House focuses particularly, China and Sudan. 
However, the report does have some problems, and on these I 
will concentrate.
    In several instances it downplays the severity or 
significance of restrictions on religious freedoms, perhaps in 
deference to the government's concern. This appears in the 
reports on Egypt, China, and Saudi Arabia, and some of those 
instances have come up in previous testimony.
    I think my most important critique is this, the report 
sometimes uses a truncated view of religion. This is not a mere 
definitional quibble. It is central to the proper 
implementation of the entire International Religious Freedom 
Act.
    The focus of the act is not on human rights violations 
against religious people. That would probably include most 
human rights violations in the world. But the focus is with 
persecution where the grounds themselves are in part religious. 
Hence, if we work with a truncated and minimalist view of 
religion, this will lead inevitably to a truncated 
implementation of the provisions of the act. This is 
particularly important as in much of our society, in 
discussions by diplomats or journalists or scholars, there is a 
tendency to gloss over the realities of religion, particularly 
after redefining it as ethnic.
    We now have a famous expression ``ethnic cleansing'', but 
that expression came into origin to describe the murder of 
Muslims who are not an ethnic group, they are a religious 
group. So what we have called ethnic cleansing is, in fact, 
religious cleansing in the former Yugoslavia.
    The report occasionally does this itself but at other times 
describes various events and actions and beliefs as political 
or cultural or economic rather than religious--that is a 
quote--as if these were mutually exclusive categories. But many 
things are religious and political or cultural and religious or 
economic and religious. I include a lot of examples in the 
written testimony.
    It is to be expected that religion will be intimately and 
complexly connected with every other facet of human rights. 
This particular problem comes to the floor in its coverage of 
the Sudan. The Sudan report does a very good job of detailing 
religious persecution in the areas under the direct control of 
the Khartoum regime, and it describes the practice of 
slavery.However, the war and the conduct of the war itself 
whose details we know, with up to 2 million dead and 4 to 5 
million displaced with widespread massacre, rape, torture and 
forced starvation, that is absent from the report. It is not 
covered. It is not dealt with.
    We are not told why, but I presume the reason is that the 
war itself must be defined as ``not religious.'' Hence, what 
may be in terms of size and intensity the world's worst 
situation of religious oppression is absent from the report. 
This is akin to disregarding race and describing South Africa's 
repression of the opponents of apartheid. After all, particular 
people arrested such as Nelson Mandela were not singled out 
because of their race, white people were also jailed, but 
because of certain acts, and anybody of any race committing 
those acts would also have been arrested.
    But on those grounds would we say that those arrests were 
political, not racial or cultural, because a policy was the 
cause of political unrest, of opposition, of demonstration, and 
then political repression? Race colors the entire thing. So 
even a war on South Africa's borders, fighting in Namibia, is 
conditioned by the racial--was conditioned by the racial policy 
of the government. A similar pattern holds for Sudan.
    The report describes the Khartoum government as ``an Arab 
regime that is Muslim'' when in fact it is, legally and in 
self-description, a Muslim regime. The regime has repeatedly 
described its war as a jihad and a religious duty and has 
publicly declared its goal to forcibly Islamicize Sudan.
    While there are many factors in this, as there are in every 
war, and while the regime certainly persecutes those Muslims 
who oppose those views, which is a majority of the Muslim 
population of the country, southern leaders have stressed 
repeatedly that the government's refusal to change its stand on 
shari'a and Islamicization is a major barrier to peace. In this 
context, the war itself should be understood as an extension of 
religious persecution.
    In contrast, in dealing with Iraq, the report does outline 
Sudan's persecution of Shiite Muslims and of Assyrian 
Christians. I think it is correct in doing so, but this simply 
makes the contrast with the Sudan doubly jarring.
    Just one other instance, Mr. Chairman, in describing the 
current conflicts in the Indonesian islands of Muluka, in which 
several hundred, perhaps several thousand people have died this 
year, the report attributes the problems arising there to 
migration which is again, I quote, the ethnic balance. But what 
is at issue there is, again, the religious balance.
    So I mention these points again that if these things are 
not seen as religious, if they are defined in other terms, it 
means they will not come under the purview of this legislation 
and will not be addressed by the State Department in a way that 
it should do so.
    Finally, yesterday the government designated as countries 
of particular concern, China, Sudan, Burma, Iran, Iraq, Serbia 
and Afghanistan. I concur with these judgments. However, I 
would question the exclusion of Saudi Arabia, North Korea, 
Vietnam, and Pakistan. Politically it is wise to have a 
concentrated focus, and I welcome it, especially the 
willingness to include China. But it does not necessarily 
reflect the worst situations.
    In closing, let me reiterate that my focus on problems 
should not overshadow the fact that this welcome report is very 
good indeed. We must now ensure that our actions are as full as 
our analyses. President Clinton said to religious leaders 2 
weeks ago, the cause of religious freedom at home and around 
the world will continue to be something that the United States 
will have to work and work and work on.
    Thank you very much.
    Mr. Smith. Thank you very much, Dr. Marshall.
    [The prepared statement of Mr. Marshall appears in the 
appendix.]
    Mr. Smith. I would like to yield to Mr. Sherman.
    Mr. Sherman. Yes, Mr. Chairman. Thank you for having these 
hearings, and thank you for your continued work on religious 
rights and human rights.
    I think this report is a step forward in general. I think 
some of its criticisms of Israel were beyond what was 
appropriate. I particularly take exception to one part of the 
report where it says the government states that it protects the 
holy sites.
    I think many of our colleagues have been there. These are 
among the most protected sites in the world, and yet to imply 
that it is merely a statement of the Israeli government that 
the sites are protected implies that maybe the sites are not in 
fact protected.
    In addition, I do not think that it is a denial of 
religious rights for Israel to look at its northern area and 
see a need to encourage settlement on vacant land by those who 
are most loyal to the regime. It certainly doesn't interfere 
with the exercise of any religion to find out that there is a 
village across the valley that practices the majority religion 
of the country.
    But I think, in general, this is a good report; and I look 
forward to next year's work. Thank you.
    Mr. Smith. Thank you very much, Mr. Sherman.
    Mr. Smith. Father Le.

STATEMENT OF REV. NGUYEN HUU LE, EXECUTIVE DIRECTOR, COMMITTEE 
                FOR RELIGIOUS FREEDOM IN VIETNAM

    Rev. Le. Mr. Chairman and distinguished Members of the 
Subcommittee, I would like to thank you for the opportunity to 
testify not only on behalf of the Committee For Religious 
Freedom in Vietnam but also for the victims of religious 
persecution in Vietnam.
    Our Committee applauds the publication of the Annual Report 
on International Religious Freedom. We are, however, troubled 
by its lack of depth and its omissions of many critical facts 
and the inaccuracy of some information contained in the section 
on Vietnam.
    First of all, the report gives the false impression that 
religious repression in Vietnam does not stem from a sustained, 
consistent policy of the central government but arises from the 
arbitrary actions of local authorities. Vietnam's Communist 
government is anti religion by virtue. Its Communist doctrine 
views religions as enemies of the people. Its policy is to 
ruthlessly weed out all religious activities that it cannot 
control and exploit for its own ends.
    Immediately after its takeover of South Vietnam in 1975, 
the Communist government cracked down on the Protestant and the 
Catholic churches and outlawed the Unified Buddhist Church of 
Vietnam, or UBCV, the Hoa Hao Church and the Cao Dai Church. 
Church leaders were arrested, detained, tortured, humiliated. 
Many died in detention; and I, myself, spent 13 years in jail 
for having defended religious freedom. I was tortured, beaten 
and sent to 3 years in solitary confinement.
    In order to wipe out all vestiges and influence of the 
independent churches, the government replaces them with state-
sanctioned organizations, whose role is to enforce government 
policies on religions.
    The Committee of Hoa Hao Buddhist Representatives formed in 
May of this year is a case in point. It is headed by a 
Communist cadre.
    The government has deftly created a church within a church 
to divide and conquer the Catholics. The role of the 
government-created Catholic Patriotic Association is to drive a 
wedge into the Catholic community. Priests who belong to this 
association are rewarded with special privileges. The wide 
latitude in practicing their faith, including some educational 
and humanitarian activities reported by the Department of 
State, is accorded only to religious persons who work with or 
for the government.
    In recent months, the government has stepped up its 
rigorous effort to harass, intimidate and persecute religious 
leaders and to impose further restrictions on religious 
activities such as the publication of religious books and 
documents.
    In May, the public security police interrupted the summer 
retreat of Buddhist monks in Saigon and threatened harsh 
punishments if the latter were found to support the banned 
UBCV.
    A group of recently released Buddhist monks were rounded up 
for questioning around the time Secretary Albright arrived in 
Vietnam.
    Mr. Tran Quang Chau, a Cao Dai leader, has been held under 
house arrest after he cosigned an open letter last month asking 
the government to recognize independent churches and to return 
all confiscated church properties. The Department of State's 
report does not reflect this reality in Vietnam.
    While the report recognizes ongoing religious repression, 
it attributes this to the arbitrary, isolated attitude of 
certain local officials in certain remote areas. In reality, 
religious repression is a policy of the central government that 
is being carried out systematically throughout the country. But 
the repression is well camouflaged and therefore not easily 
detectable, especially to foreigners. I would like to repeat--
very well camouflaged and therefore not easily detectable 
especially to foreigners. This may have contributed to the 
regrettable omissions and inaccuracies in the report.
    While the government's treatment of prisoners appears to 
have improved in recent years, the reality behind this facade 
is as deplorable and as appalling as ever.
    We understand that the Bureau of International Religious 
Freedom will make recommendations to the President based on its 
findings, so we would like to suggest the following:
    First, the Department of State should work to facilitate 
the visit to Most Ven. Thich Huyen Quang, Supreme Patriarch of 
UBCV, by a delegation of American Buddhist leaders and medical 
doctors. The Most Ven. Huyen Quang, 81 years old, has been 
detained for the past 22 years. His health is deteriorating due 
to old age and lack of medical care.
    Second, the U.S. consular offices in Vietnam should make 
every attempt to identify victims of religious persecution and 
process their applications for refugee status.
    Third, the U.S. should use all available diplomatic and 
trade-related leverages to persuade Communist Vietnam to 
release all the religious prisoners, officially recognize the 
independent churches, and to return all confiscated properties.
    With your permission, Mr. Chairman, I would like to submit 
a partial list of confiscated church properties for inclusion 
in the Congressional Record of this hearing.
    Mr. Smith. Without objection, Father, your submission and 
that of all of the witnesses will be made a part of the record.
    [The information referred to appears in the appendix.]
    Rev. Le. We hope that next year the Department of State 
will include in its report a detailed account of the progresses 
and will evaluate Vietnam's degree of cooperation in these 
particular areas.
    Thank you very much for listening to me, Mr. Chairman.
    Mr. Smith. Thank you very much for your testimony. It 
really is an honor to have a man who has suffered so much for 
his faith and for freedom to be our distinguished witness 
today. Thank you very much.
    Rev. Le. Thank you.
    [The prepared statement of Rev. Le appears in the 
appendix.]
    Mr. Smith. I would like to ask our final witness, Mr. 
Abdughuphur Kadirhaji, if he would present his testimony.
    The Interpreter. To save time, I am just going to read the 
English version off of his speech.
    Mr. Smith. OK.

STATEMENT OF ABDUGHUPHUR KADIRHAJI, UIGHUR MUSLIM, URUMQI CITY, 
                        XINJIANG, CHINA

    Mr. Kadirhaji. Dear Mr. Chairman, Members of Congress, and 
ladies and gentlemen, my name is Abdughuphur Kadirhaji. I am a 
Uyghur Muslim from Xinjiang Uyghur Autonomous Region of China. 
I thank you for giving me this precious opportunity to testify 
before you on the religious persecution of the Uyghur people in 
China.
    The Chinese Government perceives religion as the No. 1 
threat to its existence in China, especially in the Xinjiang 
Uyghur Autonomous Region. The Chinese Communist Party sees 
religion as opium used to drug the people.
    I came to the United States of America in this March. While 
I was in China, I have seen the religious persecution and 
discrimination against the Uyghurs. As a devout Muslim myself 
and also a state employee, I had never been able to publicly 
worship and express my religious beliefs. I was always afraid 
of losing my job and social benefits.
    For us Uyghurs, the most degrading and humiliating thing 
the Chinese Government does is that the Chinese Government 
often receives the Uyghurs back from pilgrimage and offers them 
alcohol to drink so as to desecrate their holy pilgrimage to 
Mecca. Many people, including myself, for fear of losing our 
jobs and positions have to drink without choice.
    Not only in times of pilgrimage does the Chinese Government 
humiliate the Uyghur people but also in times of Ramadan, the 
holy month of fasting in Islam. During the month of Ramadan, 
the Chinese Government often intentionally offers free food and 
alcohol which is forbidden in the Quran in the form of banquets 
and feasts to the Uyghurs who fast for the sake of God.
    The government also offers bread and drinks to the Uyghur 
students in high schools and colleges and universities to make 
sure that they are not fasting in Ramadan.
    In December, 1994, after I came back from my pilgrimage and 
visit to Mecca, Chinese officials poured wine on me when I 
refused to drink alcohol because of my religious beliefs. In 
1995, in the holy month of Ramadan, the Chinese officials in my 
company constantly offered me alcohol, cigarette and food which 
are forbidden in Islam, so as to break my devotion to God and 
my religion. I had to comply in many cases by asking God's 
forgiveness.
    Since 1994, the religious restrictions and the persecutions 
have been so severe in Xinjiang that an ordinary Uyghur Muslim 
couldn't possibly pray five times a day and carry out his daily 
religious duties.
    Now I want you to use some examples of religious 
persecution of Uyghurs in Xinjiang to give you a clear account.
    According to my wife who worked in the Foreign Relations 
Office for the Xinjiang Uyghur Autonomous Regional government, 
in 1996, the Chinese Social Science Academy and Xinjiang Uyghur 
Autonomous Regional Social Science Academy conducted a joint 
research project and published a book on the religious history 
of the Xinjiang from 1949 to 1996.
    This research project was directly supported and funded by 
the Chinese central government. This book clearly explains that 
Islam and religious ideas are dangerous to the unity of 
nationalities in Xinjiang and to the unification of China, and 
the government should do whatever necessary to root out this 
religious threat. This book was distributed to high-level 
Chinese government officials. The name of this is called ``Pan-
Turkism and Pan-Islamism in Xinjiang,'' and my wife has a copy 
of this book in Chinese.
    Religious education is also not allowed in Xinjiang Uyghur 
Autonomous Region. Communist party members, teachers, students, 
workers and any Uyghur who works for a state-owned enterprise 
are not allowed to go mosques and religious schools. Those who 
disobey this rule will be fired from their jobs and will lose 
all of the social benefits.
    Many Uyghur students have been expelled from their schools 
for going to mosques and for praying. Nevertheless, some Uyghur 
parents still secretly send their children to Muslim countries 
in Central Asia to study Islam, but the Chinese Government 
always put diplomatic pressure on these Muslim countries' 
governments to return the Uyghur students.
    In one case, a group of Uyghur students were returned from 
Pakistan to China. When they got to the Chinese border, the 
Chinese police immediately detained them. Some of the older 
Uyghur students protested, but they were arrested and 
imprisoned. The others though were released but denied many 
social benefits.
    In April, 1998, Abdusalam, a young devout Uyghur Muslim in 
my hometown, went to a mosque. The government-trained communist 
imam was saying that Allah says that if someone oppresses you, 
you should be patient and not fight back and that you should be 
obedient to your Chinese Government and shouldn't complain 
about your sufferings. Abdusalam, having profoundly studied 
Islam, challenged this and said that, in the Quran, Allah said 
if someone hurts you, you have the right to defend yourself. He 
pointed out what the communist imam was saying was false.
    Abdusalam was soon arrested and put in jail. He was 
tortured in prison by the Chinese guards and was later sent to 
a hospital with serious injuries. However, after some time he 
was reported dead. The Chinese police claimed that Abdusalam 
committed suicide by throwing himself out of the third floor 
window. But the people of Ghulja don't believe he committed 
suicide because he was a very pious Muslim, and in Islam 
committing suicide is a great sin. A Muslim always has to be 
hopeful even in the worst situation of his life.
    Abdusalam's parents obtained the body, and his body was so 
mangled and deformed that they found it so hard to recognize 
their own son. But the people of Ghulja believe that he was 
tortured to death by the Chinese police before he was sent to 
the hospital.
    Abdusalam had never been politically active. He had never 
participated in any demonstration. All he did was point out 
that the communist Chinese government propaganda that the imam 
was spreading to the Uyghurs in the mosque was wrong.
    My sister's husband, Abdushukur Kamberi, went to Pakistan 
in 1986. There he studied Islam with several renowned Islamic 
scholars. Therefore, he earned a reputation as a very 
knowledgeable man in Islamic theology. The Chinese government 
felt threatened by him after he came back and tried to use him 
by giving him a religious title. By appointing him, the Chinese 
Government attempted to involve him in spreading the Chinese 
propaganda instead of the Islamic truth.
    He defied them and visited all of the mosques in the city 
and told the imams that the mosque was not the place for 
Chinese communist propaganda. It is only a place for the 
Quranic truth and the traditions of the prophet Muhammad.
    After several months, he went to Urumqui to bring his 
mother's and other relatives' passports for visas to make the 
pilgrimage to Mecca. But the Xinjiang Regional Public Security 
used this as an opportunity and arrested him in July, 1997. The 
Chinese police claimed that he was trying to escape China. But 
he wasn't even bringing his own passport.
    The Chinese government put him in jail and severely 
tortured him and sent him to a Chinese military hospital. 
Currently, he is under house arrest.
    Under Chinese constitution, people have the right to 
religious freedom, but China is not ruled by law. The Chinese 
government religious policies are totally different from what 
is written in the law. The communist imams are government 
trained and only serve the brutal, repressive communist Chinese 
regime. They worship the Chinese communist party instead of 
God, and they put party above God.
    In their sermons, they only preach about obeying the 
Chinese government and its policies, having a good relationship 
with the Chinese government and Chinese people, unifying all 
nationalities and implementing the one-child policy.
    There are informants and spies disguised as pious Muslims 
inside many mosques to monitor what the Uyghur religious 
leaders and people do and say.
    The Chinese government claims that it sends thousands of 
religious students abroad each year to study, but almost all 
the Uyghur religious students from abroad have been arrested 
and harassed. The Chinese government claims that it supports 
Uyghurs going for pilgrimage to Mecca, but the Chinese 
government only supports and funds the informants and spies in 
the pilgrimage group to monitor the Uyghurs words and deeds 
throughout the entire journey.
    In many cases, the Chinese government never approves those 
Uyghurs who want to conduct pilgrimage to Mecca on their own. 
Earlier this year, in February, while I was in Beijing, more 
than 400 Uyghurs who had legal passports, visas and round-trip 
tickets to make the pilgrimage to Mecca were deported back to 
Xinjiang because they were not part of the state-approved 
pilgrimage delegation.
    Each year the Chinese government only approves a very small 
number of chosen, well-checked, loyal Uyghurs to go for the 
pilgrimage. The Chinese government always associates Islam with 
the so-called separatist activities and readily arrests those 
devout Uyghur Muslims in the name of unification.
    The religious freedom guaranteed in the Chinese 
constitution is a sheer lie. It is aimed at deceiving the world 
that China respects the right to religious freedom, especially 
the right of minorities to choose and worship their own 
religion. On the contrary, the Chinese government often denies 
the legitimate rights of Uyghur people to worship and to study 
Islam and force them to obey the government through communist 
Chinese propaganda. In China, religious freedom is only on the 
paper but not in practice.
    There is not religious freedom for the Uyghur people in 
China under the atheistic communist Chinese government, and we 
hope that the U.S. State Department could address these issues 
in their contacting with the Chinese authorities.
    Thank you very much.
    Mr. Smith. Thank you very much for that excellent 
testimony.
    [The prepared statement of Mr. Kadirhaji appears in the 
appendix.]
    Mr. Smith. I just have a few questions, and then will open 
things up for any comments that our witnesses might have.
    Ms. Shea, I think your point is very well taken about the 
moral equivalency of the Sudan and China. I think as time goes 
on, especially since these countries were just announced as 
countries of particular interest, that we will soon be seeing a 
blast from the Chinese embassy in terms of refuting this. We 
hope that they respond. If they don't, I can assure you 
additional hearings and perhaps site visits to that country 
will raise it.
    Unfortunately, there were some omissions, at least in my 
view and in the view I think of some of other members of the 
panel. But I think your point was very well taken that the 
juxtaposition of those two countries hopefully will not escape 
the notice of the world because China certainly fashions itself 
somehow as--and it is--an emerging superpower. But with that 
superpower status comes at least the most basic of all 
recognitions, and that is the right of the freedom of 
conscience and basic religion.
    So I really appreciate you making that point.
    Ms. Shea. I think that American policy with regards to 
China will reverberate throughout the world, particularly in 
Asia. Particularly in Vietnam. I have noticed in my own 
monitoring a deterioration in religious freedom in Vietnam 
alongside that with American delinking of trade privileges with 
China. They take their cues from the U.S. relationship with 
China. In a way I think China and Sudan are both representative 
of two types of very serious threats to religious freedom.
    Mr. Smith. I think it is important. On one of my human 
rights trips to China when I met with members of the U.S. 
Chamber of Commerce in Beijing, the assorted government affairs 
people who were there for the various businesses that the 
Commerce folks at our embassy had arranged for me to meet were 
totally disbelieving that there was a religious persecution 
issue. Totally.
    One of the CEO's in a very dismissive tone of voice said, 
why don't you just go with my secretary to church. She goes to 
the Catholic church. It is open.
    I said, it is part of the Catholic Patriotic Association, 
the overseer of that being a branch of the Chinese government, 
and anyone who is part of the Roman Catholic church is part of 
an underground church and faces severe persecution and 
disciplinary action.
    He didn't believe it. He said, ``That is not true.''
    So this recognition in this report certainly will go a long 
way to establishing a fact, to the best of our understanding, 
as to what the real reality is in China.
    Now this is news. We have known it for some time. We have 
raised it. But now it gets the imprimatur of a report from a 
body that has looked at it with a fresh set of eyes and come to 
that same conclusion.
    Ms. Shea. I think this is a big departure for the State 
Department, and I am very hopeful that it will act on this now, 
this list of priorities.
    One thing that caught my eye in Ambassador Seiple's 
testimony is that he was, toward the end of it, talking about 
their success cases, and he mentions that in Uzbekistan that 
there was--the Uzbek government responded. He says that the 
U.S. Government had pressed the Uzbek government at virtually 
every level to take concrete actions in reducing the incident 
of religious persecution.
    He said, while it was persistent and intense pressure--but 
I think you put your finger on it, which is that maybe the 
Commerce Department officials, the trade delegations that go 
over there don't give this intense and persistent message. It 
is the human rights officials who don't have by themselves a 
lot of leverage who give that message. If there was a continual 
pressing at every level, you might see results in China, too.
    Mr. Smith. Plus they buy into the show that the Chinese 
government puts on, the Potemkin village that portrays any 
suggestion that there is repression here as a myth.
    Let me, with regard to the two-step process that Mr. 
Rickard mentioned--and you have been utterly consistent. I have 
been in Congress 19 years. Amnesty, whether it be Republican or 
Democrat administration, tries to hold that administration to 
account for an honest portrayal in the country reports. But 
there also needs to be a linkage to policy.
    When I first took the Chairmanship of this Subcommittee, 
when the Republicans took control, you and each of your 
representatives have always said that the country reports on 
human rights practices are excellent documents, notwithstanding 
some flaws, witch you point out. But there is always this major 
disconnect between facts on the ground, country by country, and 
any linkage to policy.
    Probably the most glaring was and continues to be the 
delinking of MFN with China, about which reasonable people can 
have differing opinions on. But there are other ways of 
engaging as well, with many penalties that accrue to offending 
countries.
    You made the point, and I hope it does not go unnoticed by 
Ambassador Seiple and everyone else in his shop and by 
Secretary Madeline Albright, that hopefully this isn't going to 
be just an exercise of good reporting followed by a lack of 
works or followup.
    We will try within this Committee to see that even those 
modest penalties with all the waivers that were provided are 
utilized to the greatest extent possible in a cooperative 
venture with the administration. Our end game is just more 
religious freedom, that is all we want, and those offending 
countries should know that.
    I will never forget--and this was brought out by one of our 
witnesses, and I think Mr. Wolf mentioned this--just a couple 
of years ago, slavery was dismissed as nonexistent in the 
Sudan--and I know Nina Shea has spoken to this many, many 
times--and in Mauritania, where it is probably less of a 
problem but still existed. We had the first hearing on that in 
our Subcommittee in 1996 and we were roundly criticized for 
believing a myth--that it just doesn't occur, it was 
exaggerated and hyperbole.
    Now I think there is a consensus that it is a problem. So 
hopefully this report becomes the catalyst for, thinking ``wow, 
it is as bad as we thought in this country or that, and we need 
to do something about it.'' We will try to give the 
administration, no matter whose control it is under, maximum 
arrows in their quiver to prudently promote a policy that 
protects the free exercise of religion.
    So perhaps you might want to speak to the two-step, and the 
message is go forward from here: good report, now we need 
action. It can't be mitigated by that rose-colored lens of 
constantly saying, oh, it might hurt commerce. It might do 
this. There are too many people suffering.
    Mr. Rickard.
    Mr. Rickard. Let me just make a couple of points.
    First, I want to just very strongly endorse something that 
Nina just said, and that is the ripple effect from the backing 
down on human rights in China. I just think that has had a 
devastating impact throughout Asia, and I think the closer you 
get to China maybe the more so. Amnesty never took a position 
on linking MFN, for or against it. Whatever you think about it, 
taking that position and then backing down was devastating to 
the most important thing you have to have as a diplomat pushing 
any issue, and that is credibility.
    You don't have credibility if they don't believe you really 
care about the issue. When push comes to shove, you will really 
care about the issue, and it is going to be a serious fight 
about it, then people just kind of say, OK, fine, we will hear 
you out; we will hear your demarche.
    I have to tell it you that in representing the United 
States, in making human rights demarches at times following the 
delinking, I got the very definite impression that the reaction 
of some foreign diplomats was, to essentially say ``I don't 
like this. I don't like that you are coming in here and telling 
us what we ought to do.
    At the end of the day, I know it is just talk, and I figure 
I have got to put up with this for 20 more minutes. I am paid 
to that, OK; and when does the trade delegation arrive?''
    I think that is why, when people say, why do we fight this 
meaningless fight in Geneva year after year? Gee, we lose. What 
is the point? What you are trying to show the Chinese is that 
we do care about this and that there is some point past which 
we will not retreat, and this is one of them. We will at least 
go to multilateral fora that are designed to raise human rights 
issues, and we will raise the gross human rights violations 
that you are committing, and if we stop, a very different 
message will be sent. We are in a hole. We have got to 
establish credibility on human rights issues.
    I believe that the people of the Department care about it. 
I absolutely believe that, but they need help proving it to 
people, that they will be there when push comes to shove.
    I would like to make one little point that I actually meant 
to make in my testimony. This is not a central or critical 
point, but I think it is an interesting one about the way the 
United States reacts to criticism and scrutiny and the 
implications that that can have for our ability to push human 
rights issues abroad.
    Recently, we talked about the Special Rapporteur visit in 
Vietnam, and recently a head of state refused to let another 
Special Rapporteur visit facilities, claiming reportedly that 
the Special Rapporteur was just a tool of people that wanted to 
discredit the state.'' I have to tell you that the head of 
state was Governor John Engler of my home State of Michigan 
refusing to permit the Special Rapporteur on violence against 
women visit prison facilities in Michigan.
    I am a very proud native of the State of Michigan. I am not 
remotely suggesting that the situation in Michigan is 
comparable to other places they might investigate. But you then 
see the Vietnamese government holding a press conference and 
saying in these words, ``individuals or organizations which 
come to Vietnam to conduct activities concerning human rights 
or religion and interfere with the internal affairs of the 
country will no longer be accepted.''
    Whatever we may think about, that particular mission, the 
refusal to cooperate with it and to call the Special Rapporteur 
a tool of people who are trying to simply discredit the state 
is unquestionably fodder for people who want to say, you don't 
accept scrutiny. Why should we accept scrutiny? We agree with 
you. They are just tools.
    I am not implying moral equivalence, although there are 
problems and we have documented a lot of them. But there is no 
question that when President Clinton issues an executive order 
that says we ratified these human rights treaties and I want 
the Federal Government to look to make sure we are actually 
implementing them and we are taking them seriously and we are 
cooperating and we are filing our human rights reports on time, 
and he gets 30 United States Senators sending him a letter 
saying, we are really troubled about this, and we are very 
upset about it, and what are you trying to do, it undercuts our 
ability to say to other countries we take this seriously. We 
demand that you take it seriously. We are treaty partners. We 
have a right to demand that you live up to these standards. We 
are not imposing our values on you. These are internationally 
recognized norms that you voluntarily accepted when you agreed 
to these conventions, and now we want you to live up to the 
obligations.
    So there are implications for our reaction to 
understandable prickliness from time to time about criticism. 
We just need to say, come on in. We will take the suggestions. 
We will consider them just like everybody else ought to.
    Mr. Smith. You may find it interesting that in the 1980's, 
in the Helsinki Commission, we initiated a policy that in our 
bilaterals especially with then what was the Soviet Union if 
they had complaints against the U.S., we wanted them in 
writing, and we would followup those complaints or those 
criticisms with a written report. We expected the same from 
them. It did provide for a much more open dialogue.
    So I think your point is well taken. We have nothing to 
hide, and when we have problems we need to clean them up.
    I would like to ask the question in terms of deeds again, 
and this would be to Mr. Kadirhaji. The report correctly notes 
the harsh treatment of the Uyghurs in Xingiang, China, 
including executions and possible killings but U.S. Government 
policy says nothing about U.S. interventions on behalf of 
Muslims who have been persecuted in Xingiang.
    To the best of your knowledge, has the U.S. Government, any 
of our embassy personnel, anyone made a representation on 
behalf of Uyghurs?
    The Interpreter. He has no idea. He doesn't believe that 
any U.S. Government officials addressed these issues.
    Mr. Smith. I will provide that question to Ambassador 
Seiple as well. Hopefully there will be, if there has not and 
hopefully there will in the future, representations on behalf 
of the Uyghurs. I suspect there probably have been.
    Just one final question, and again it goes back to the 
Sudan, and again talking about words and deeds. The report 
points out that two clerics, two priests, had been arrested, 
two of many I am sure, but their names are given in the report, 
Hillary Boma and Lino Sebit, who may face possible execution 
and crucifixion for unsubstantiated charges.
    I was wondering if any of our witnesses are aware of their 
plight. Perhaps, Nina, being a member of the Commission, you 
might have some insight as to what the government is doing on 
their behalf.
    Ms. Shea. I am aware of that case. I don't know what our 
government is doing on their behalf. We don't have an 
ambassador there, as you know, and I am not sure--our 
Commission has not undertaken that portion of its investigation 
yet to know what the U.S. policy actually has been on the 
religious persecution in Sudan, as opposed to terrorism where 
we know that there has been investigation and action.
    Some of our Commission members that are Presidential 
appointees did not get appointed until very late and we had to 
get special legislation to enable us to spend money, so we 
really didn't get off the ground until late summer or 
September. So that is something that we are going to look into.
    Mr. Smith. Let me ask one question about North Korea which, 
based on all of the available information that I have seen, 
should have been on the list because of its very extreme and 
repressive policies with regard to religion and every other 
human rights abuse under the sun. Yet the report cites a lack 
of information or a lack of the capability to report as one 
reason why it didn't make the list, which obviously would lead 
a country to be less open and more closed in order to avoid any 
kind of penalty pursuant to this law, if they were so inclined.
    Is there not room for presumption based on best available 
information to put a country, a rogue nation like North Korea 
on the list and not somehow give them a false sense of being 
excluded?
    Ms. Shea. Yes, I think there is. It is the most Stalinist 
state in the world. That is why you can't get in there and do 
an investigation. There are some refugee reports of Christians 
and other religious believers being punished to the third 
generation in prison. In other words, if your grandmother was 
caught praying, the grandson is still in prison serving a term 
for that.
    There is new evidence coming out. There is also the 
converse that there is a cult built around the leader, and that 
there is a coerced religion really. People are forced to 
worship the Korean leader. So I think that is another argument 
you can make that it is--there is no religious freedom. 
However, we don't have any relations with Korea or trade 
relations with Korea now, so you can argue that all the tools 
are being used in that situation.
    But I think--I always believe in highlighting. I think the 
reporting itself is important, of exposing the human rights 
violations. No government likes to be accused of the most 
draconian human rights violations, and for that purpose alone I 
think it is worth it.
    Mr. Smith. Yes. Dr. Marshall.
    Mr. Marshall. Just to add to that, Mr. Chairman, the report 
is correct, but it is very hard to check and authenticate 
anything about North Korea. However, all the evidence there is, 
including particular testimony from people going over into 
China, is that it is highly repressive. I mean, it describes 
some of those things. There are no reports or indications which 
would give a contrary picture. So the weight of whatever 
evidence we have says this is perhaps one of the worst 
situations in the world. The report should certainly have 
mentioned that. I was stunned when I read that, just almost an 
empty space in the report.
    Mr. Rickard. I will just add, I agree with what my 
colleagues have said. I do think it is a dangerous precedent to 
say, well, we can't do this because there is a lack of 
reporting. Amnesty is about to launch an international campaign 
on human rights violations in Saudi Arabia, and it is another 
country where it is just very hard to get information. This is 
the same sources, human refugees, you do the best you can.
    But my personal view is, personally, I think it is 
reasonable to have presumptions in situations where there is a 
certain amount of evidence that points in one direction. It 
depends upon what you are looking at specifically, but there is 
no entitlement to some of the items that are listed in the 
legislation.
    Mr. Smith. I will like to recognize the Chief Counsel and 
Staff Director, Joseph Rees.
    Mr. Rees. I have a couple of questions for Father Le, 
following up on some questions that the Chairman asked to 
Ambassador Seiple. But I would like to note, on this question 
of North Korea, that there is a presumption in the American 
legal system and civil cases and in every other legal system I 
know about that once an issue is before the court, if one side 
has destroyed or hidden the evidence, you resolve solve that 
issue against that side.
    Father Le, could you just state briefly. Is your 
organization, the Association for Religious Freedom in Vietnam, 
an inter-faith organization with Buddhists and Catholics and 
Protestants and Hoa Haos and others?
    Rev. Le. Thank you for your question. The people sitting 
behind me are from the different faiths including Buddhists and 
Hoa Hao and Catholic as well, because our group is a 
combination of different communities, different religions in 
Vietnam, because we have the same--the same fate. We have 
religious persecution, so we unite ourselves, and we call 
ourselves Committee for Religious Freedom for Vietnam, and we 
combine all different communities and different religions.
    Mr. Rees. Are you active and in current touch with your 
coreligionists in Vietnam so that you have sources of 
information not just about what happened before you left the 
country but what is happening today?
    Rev. Le. Yes, I do. Because we are concerned very much 
about our situation in North Vietnam. I, myself, as a witness 
of the Vietnamese people itself, I have maintained contacts all 
the time with my people inside the country.
    Mr. Rees. So you still do keep that contact?
    Rev. Le. Yes, I do.
    Mr. Rees. I heard Ambassador Seiple testified that during 
his recent visit to Vietnam the people with whom he was able to 
meet in different religious groups, all of them--Catholics, 
Protestants, Buddhists--everybody said that things had gotten 
better in the last 5 years. What is your assessment of that 
view?
    Rev. Le. Yes, this is very good indication for me to make 
clear about the situation of the religious situation in 
Vietnam. We have two kinds of looks. The first one is 
appearance. We do emphasize that from the outside the situation 
looks OK. On Sundays and at festivals, the government allows 
people to come to church as well, but in the reality, the 
churches have no right, no right to do their own business. 
Everything they do they have to get permission from the 
government.
    Second, is the government tries to create a church within a 
church, during a wedge into the community to divide them so as 
to control them.
    Mr. Rees. You did testify about that, Father?
    Rev. Le. Yes.
    Mr. Rees. Let me just ask one more question. The report, 
and our annual country report on human rights practices, talks 
about organizational strictures on the Catholic church. It 
talks about the issue of appointment of bishops, question of 
seminarians, church property. It does not talk about any 
doctrinal constraints.
    Now during a staff delegation to Vietnam, we were told by 
Catholics there that in fact there are also serious doctrinal 
constraints. The example that was given was that if a priest 
tried to preach from the pulpit that abortion was a sin that he 
would be denied the right to preach from then on.He would 
probably be put into internal exile, because that would be 
perceived an antigovernment statement, even though he was only 
making a moral statement of Catholic doctrine.
    Is that correct? Or would he be allowed to do that as long 
as he was organizationally regular, as far as the state is 
concerned?
    Rev. Le. That is correct. Because all in the sermons of the 
preachers who have been--belonged to the ideology of the 
government; because all church assemblies have to be submitted 
to be checked by the government. This means you have to preach 
everything according to the will of the government only. That 
is what the situation is in Vietnam.
    Mr. Rees. Do sermons have to be submitted in advance to the 
government, approved in advance?
    Rev. Le. Approved in advance, yes.
    Mr. Rees. This is recently true? You have spoken with 
people in the country and that is still true today?
    Rev. Le. Sometimes. In different areas. Sometimes this 
one--this one area is OK and another area is completely 
different. But the real situation is that the Communist 
government tries to control all the activities of--all the 
religions, not only Catholics but all religions as well.
    Mr. Rees. I want to recommend that you give that 
information and any other information you have to Ambassador 
Seiple's office, because I have seen a disconnect between some 
of the information that the State Department has and some of 
the things that people tell us about Vietnam.
    Rev. Le. I will, because our main concern is very much so; 
so we will try to give updated information about the situation 
of the church in Vietnam. We will. Thank you.
    Mr. Rees. Thank you.
    Mr. Smith. Thank you.
    Unfortunately, we have a vote on the House floor that I am 
going to have to rush off to. It is a very significant vote on 
the health care reform.
    But I do have a whole series of questions I did want to 
pose, but time does not permit. I would like to get to all of 
you some of the questions that would be pertinent to some of 
your testimony today and where I think you might provide some 
insight to the Subcommittee.
    Again, I want to thank you for your excellent testimony, 
for the good work that you do, your front-line leadership as 
human rights activists. For that, the world owes you a debt of 
gratitude. We certainly respect your opinion and your insights 
and your courage. And I want to thank you all for your 
testimony.
    The hearing is adjourned.
    [Whereupon, at 5 p.m., the Subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                            October 6, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T4167.001
    
    [GRAPHIC] [TIFF OMITTED] T4167.002
    
    [GRAPHIC] [TIFF OMITTED] T4167.003
    
    [GRAPHIC] [TIFF OMITTED] T4167.004
    
    [GRAPHIC] [TIFF OMITTED] T4167.005
    
    [GRAPHIC] [TIFF OMITTED] T4167.006
    
    [GRAPHIC] [TIFF OMITTED] T4167.007
    
    [GRAPHIC] [TIFF OMITTED] T4167.008
    
    [GRAPHIC] [TIFF OMITTED] T4167.009
    
    [GRAPHIC] [TIFF OMITTED] T4167.010
    
    [GRAPHIC] [TIFF OMITTED] T4167.011
    
    [GRAPHIC] [TIFF OMITTED] T4167.012
    
    [GRAPHIC] [TIFF OMITTED] T4167.013
    
    [GRAPHIC] [TIFF OMITTED] T4167.014
    
    [GRAPHIC] [TIFF OMITTED] T4167.015
    
    [GRAPHIC] [TIFF OMITTED] T4167.016
    
    [GRAPHIC] [TIFF OMITTED] T4167.017
    
    [GRAPHIC] [TIFF OMITTED] T4167.018
    
    [GRAPHIC] [TIFF OMITTED] T4167.019
    
    [GRAPHIC] [TIFF OMITTED] T4167.020
    
    [GRAPHIC] [TIFF OMITTED] T4167.021
    
    [GRAPHIC] [TIFF OMITTED] T4167.022
    
    [GRAPHIC] [TIFF OMITTED] T4167.023
    
    [GRAPHIC] [TIFF OMITTED] T4167.024
    
    [GRAPHIC] [TIFF OMITTED] T4167.025
    
    [GRAPHIC] [TIFF OMITTED] T4167.026
    
    [GRAPHIC] [TIFF OMITTED] T4167.027
    
    [GRAPHIC] [TIFF OMITTED] T4167.028
    
    [GRAPHIC] [TIFF OMITTED] T4167.029
    
    [GRAPHIC] [TIFF OMITTED] T4167.030
    
    [GRAPHIC] [TIFF OMITTED] T4167.031
    
    [GRAPHIC] [TIFF OMITTED] T4167.032
    
    [GRAPHIC] [TIFF OMITTED] T4167.033
    
    [GRAPHIC] [TIFF OMITTED] T4167.034
    
    [GRAPHIC] [TIFF OMITTED] T4167.035
    
    [GRAPHIC] [TIFF OMITTED] T4167.036
    
    [GRAPHIC] [TIFF OMITTED] T4167.037
    
    [GRAPHIC] [TIFF OMITTED] T4167.038
    
    [GRAPHIC] [TIFF OMITTED] T4167.039
    
    [GRAPHIC] [TIFF OMITTED] T4167.040
    
    [GRAPHIC] [TIFF OMITTED] T4167.041
    
    [GRAPHIC] [TIFF OMITTED] T4167.042
    
    [GRAPHIC] [TIFF OMITTED] T4167.043
    
    [GRAPHIC] [TIFF OMITTED] T4167.044
    
    [GRAPHIC] [TIFF OMITTED] T4167.045
    
    [GRAPHIC] [TIFF OMITTED] T4167.046
    
    [GRAPHIC] [TIFF OMITTED] T4167.047
    
    [GRAPHIC] [TIFF OMITTED] T4167.048
    
    [GRAPHIC] [TIFF OMITTED] T4167.049
    
    [GRAPHIC] [TIFF OMITTED] T4167.050
    
    [GRAPHIC] [TIFF OMITTED] T4167.051
    
    [GRAPHIC] [TIFF OMITTED] T4167.052
    
    [GRAPHIC] [TIFF OMITTED] T4167.053
    
    [GRAPHIC] [TIFF OMITTED] T4167.054
    
    [GRAPHIC] [TIFF OMITTED] T4167.055
    
    [GRAPHIC] [TIFF OMITTED] T4167.056
    
    [GRAPHIC] [TIFF OMITTED] T4167.057
    
    [GRAPHIC] [TIFF OMITTED] T4167.058
    
    [GRAPHIC] [TIFF OMITTED] T4167.059
    
    [GRAPHIC] [TIFF OMITTED] T4167.060
    
    [GRAPHIC] [TIFF OMITTED] T4167.061
    
    [GRAPHIC] [TIFF OMITTED] T4167.062
    
    [GRAPHIC] [TIFF OMITTED] T4167.063
    
    [GRAPHIC] [TIFF OMITTED] T4167.064
    
    [GRAPHIC] [TIFF OMITTED] T4167.065
    
    [GRAPHIC] [TIFF OMITTED] T4167.066
    
    [GRAPHIC] [TIFF OMITTED] T4167.067
    
    [GRAPHIC] [TIFF OMITTED] T4167.068
    
    [GRAPHIC] [TIFF OMITTED] T4167.069
    
    [GRAPHIC] [TIFF OMITTED] T4167.070
    
    [GRAPHIC] [TIFF OMITTED] T4167.071
    
    [GRAPHIC] [TIFF OMITTED] T4167.072
    
    [GRAPHIC] [TIFF OMITTED] T4167.073
    
    [GRAPHIC] [TIFF OMITTED] T4167.074
    
    [GRAPHIC] [TIFF OMITTED] T4167.075
    

</pre></body></html>
